<html>
<title> - [H.A.S.C. No. 111-67]ANOTHER CROSSROADS? PROFESSIONAL MILITARY EDUCATION TWENTY YEARS AFTER THE GOLDWATER-NICHOLS ACT AND THE SKELTON PANEL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-67]
 
ANOTHER CROSSROADS? PROFESSIONAL MILITARY EDUCATION TWENTY YEARS AFTER 
            THE GOLDWATER-NICHOLS ACT AND THE SKELTON PANEL


                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              MAY 20, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     



                  U.S. GOVERNMENT PRINTING OFFICE
51-661                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        MIKE ROGERS, Alabama
SUSAN A. DAVIS, California           TRENT FRANKS, Arizona
JIM COOPER, Tennessee                CATHY McMORRIS RODGERS, Washington
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GLENN NYE, Virginia                  DUNCAN HUNTER, California
CHELLIE PINGREE, Maine
                Lorry Fenner, Professional Staff Member
                 John Kruse, Professional Staff Member
                      Trey Howard, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, May 20, 2009, Another Crossroads? Professional 
  Military Education Twenty Years After the Goldwater-Nichols Act 
  and the Skelton Panel..........................................     1

Appendix:

Wednesday, May 20, 2009..........................................    37
                              ----------                              

                        WEDNESDAY, MAY 20, 2009
ANOTHER CROSSROADS? PROFESSIONAL MILITARY EDUCATION TWENTY YEARS AFTER 
            THE GOLDWATER-NICHOLS ACT AND THE SKELTON PANEL
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2

                               WITNESSES

Breslin-Smith, Dr. Janet, Retired Professor and Department Head, 
  National War College...........................................     5
Carafano, Dr. James Jay, Assistant Director, Kathryn and Shelby 
  Cullom Davis Institute for International Studies, Heritage 
  Foundation.....................................................    10
Cochran, Dr. Alexander S., Historical Advisor to the Chief of 
  Staff of the Army, U.S. Army...................................     8
Kohn, Dr. Richard H., Professor of History, and Peace, War, and 
  Defense, University of North Carolina at Chapel Hill...........    12

                                APPENDIX

Prepared Statements:

    Breslin-Smith, Dr. Janet.....................................    48
    Carafano, Dr. James Jay......................................    63
    Cochran, Dr. Alexander S.....................................    59
    Kohn, Dr. Richard H..........................................    69
    Snyder, Hon. Vic.............................................    41
    Wittman, Hon. Rob............................................    44

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................    91
ANOTHER CROSSROADS? PROFESSIONAL MILITARY EDUCATION TWENTY YEARS AFTER 
            THE GOLDWATER-NICHOLS ACT AND THE SKELTON PANEL

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                           Washington, DC, Wednesday, May 20, 2009.
    The subcommittee met, pursuant to call, at 1:06 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. Good afternoon, 
and welcome to the Subcommittee on Oversight and 
Investigations' first formal hearing on professional military 
education (PME).
    It is just over 20 years since the passage of the 
Goldwater-Nichols Act that reformed our military by 
institutionalizing what we call ``Jointness.'' It is exactly 20 
years after the Skelton panel reviewed professional military 
education to make sure that the military changed its culture to 
education to make sure that jointness would stick.
    Today, we are starting a series of hearings to last over 
the next three or four months following on background work we 
have been doing for the last three months. Although there are 
many variations on PME, including distance learning and courses 
for enlisted service members and civilians, the scope of this 
project is limited to in-residence officer PME from the service 
academies to the company-grade and intermediate levels up 
through the war colleges, as well as the flag officer's course 
called Capstone.
    Mr. Ike Skelton, our chairman, who was involved in that 
work over 20 years ago, recalls that militaries usually don't 
change things when they are successful. Instead, the reforms of 
the 1980s came on the heels of failures in Grenada and in 
attempting to rescue our hostages in Iran. In fact, Mr. Skelton 
reminded us often that, even with these failures, it was not 
easy to convince the services that they had to change. He knew 
then what we know now: that the way to change cultures is 
through education.
    The issue before us as we embark on an investigation goes 
to the very existence of military schools. The famous, or 
perhaps for some of you infamous, journalist Tom Ricks 
questioned just last month whether there was even a need for 
our academies and war colleges. He reminds us that, from time 
to time, we should assess what our professional military 
schools are meant to do for the Nation. We are also going to 
ask if they are doing what the Nation needs now and if they are 
doing it in the best way.
    Finally, we are going to try to get to explore whether they 
are doing it successfully and, if not, what needs to change.
    Our study seems to be timely. Several other related efforts 
are underway. The Defense Science Board has started a study of 
PME that they will complete next spring. In addition, the 
Center for Strategic and International Studies (CSIS) and the 
Center for a New America Security are both just beginning 
studies on the larger issue of joint officer management that 
will also include a look at PME. CSIS intends to complete their 
study by the end of the year.
    In order to conduct our study, we will be asking about the 
mission of the PME system and of each of the schools and what 
makes them unique, one to the other, as well as different from 
civilian schools. We will also be asking about the rigor with 
which they go about their business. And because education is 
necessarily a human business, we want to learn more about the 
quality and qualifications of the senior leadership, faculty, 
and students at these institutions.
    We will also be asking about the organization and resources 
the department and services afford these schools. And finally, 
we will explore their curricula. They each have their 
accrediting bodies for both the professional military education 
and their academic degrees, but we want to look broadly at the 
question of balance--balance between the enduring and the new, 
and the new challenges.
    And, as each school tries to balance enduring and new, how 
they incorporate lessons learned and other important subject 
matter into their curricula on a continuing basis. We 
specifically want to know what they do with areas such as 
strategy and military history, irregular warfare, language 
skills, regional expertise and cultural competency, and, beyond 
jointness, inter-agency and multinational integration.
    While in later hearings we will seek to hear from the 
commandants to the schools, and even the combatant commanders 
who employ the graduates of these institutions, our panel of 
witnesses is uniquely situated to get us started on the broader 
questions, and I am confident that you all will help us frame 
our investigation.
    I will now yield to Mr. Wittman for an opening statement, 
and then we will see if Chairman Skelton would like to share 
some thoughts with us.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 41.]

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Very good. Thank you, Chairman Skelton, Dr. 
Breslin-Smith, Dr. Cochran, Dr. Carafano, Dr. Kohn. Welcome 
here today. Thank you for taking your time to join us. This is, 
I think, a very, very important effort as we go forth with 
trying to make sure we know what the PME system needs to 
provide and the JPME system needs to provide to our men and 
women in uniform.
    And to begin, you must truly be experts to be asked to 
testify at our opening hearing on professional military 
education, because our committee expert and the person 
responsible for initiating this study is none other than our 
distinguished chairman, Ike Skelton. And because he cares 
deeply about professional military education, our chairman has 
exerted profound positive influence on the system over the past 
two decades.
    This hearing begins a timely review of that system. And I 
would like to take a moment to frame the issue for the record. 
Any study must have limited, achievable objectives to avoid 
becoming swamped in unmanageable data, a caution well applied 
to congressional studies.
    As I understand it, we will examine in-residence officer 
professional military education as a whole, starting with the 
military academies and continuing through the general officer 
Capstone course. Consequently, this review will not cover the 
military services' extensive and growing distance learning 
programs, non-commissioned officer education programs, nor 
Reserve Officer Training Corps, or ROTC programs, on college 
campuses.
    Furthermore, within the in-residence officer PME system, we 
will concentrate our efforts on the joint professional military 
education (JPME) system at the intermediate and senior levels. 
And I truly applaud this approach as we are concentrating on 
the area that was rejuvenated by the Skelton panel 
recommendations and continues to get the most attention today.
    Indeed, officers must show that they have completed JPME 
levels I and II to advance in their careers to the flag or 
general officer level. No schooling, no promotion. Hence, JPME 
credit is important to individual officers.
    Joint PME is challenging to manage for several reasons. For 
starters, this training and education system is operated from 
the office of the chairman of the Joint Chiefs of Staff.
    Admiral Mullen owns the National Defense University (NDU), 
and his staff sets the JPME standards that NDU and the military 
service war colleges must follow. Ordinarily, military 
education systems are managed by the military departments, but 
JPME is an exception, forcing the joint chief to function like 
a military service--excuse me, the joint staff to function like 
a military service, an unaccustomed role for the joint staff.
    The service chiefs oversee their own institutions, like the 
eminent Marine Corps University at Quantico, Virginia, which is 
in my district, and provides for resources in hiring faculty. 
Finally, the military services select the students who attend 
all the PME institutions and make selections for promotion.
    Given today's operational tempo, there is tremendous 
pressure on the military services to ensure their officers 
attain JPME credit as efficiently as possible. Somehow, this 
complex mosaic seems to work as our Nation is blessed with fine 
flag officers in all branches of the service. Nonetheless, the 
system is due for a re-look in this time of change in 
extraordinarily busy operational tempo.
    Our military officers, including our junior officers, are 
conducting not just joint military operations, but inter-agency 
and international operations, as well. Are our officers 
prepared for these real challenges of today? Not only at the 
tactical and operational level, but are we developing a cadre 
of grand strategists able to navigate the uncertain waters for 
tomorrow's geopolitical struggles? We must ensure that our 
military's developing leaders today who will be effective in 
any situation.
    This is a very exciting topic, which will generate much 
debate and much discussion about the direction we need to be 
doing. I look forward to this discussion today and the months 
to come.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 44.]
    Dr. Snyder. Thank you, Mr. Wittman.
    Chairman Skelton, would you like to say a few words?
    The Chairman. That is the definition of introducing a 
politician, would you like to say a few words. The answer to 
your questions----
    Dr. Snyder. You could read your book to it, ``Whispers of 
Warriors: Essays on the New Joint Era,'' by Ike Skelton.
    The Chairman. We don't have time.
    To answer your question, Mr. Wittman, are we developing 
those strategic thinkers, not long ago, I had the opportunity 
to visit with the outgoing chairman of the Joint Chiefs of 
Staff, General Peter Pace. And I asked him, of the average 
graduate class of the National War College, how many could 
actually sit down and have a serious discussion with George C. 
Marshall. His answer was, ``Three or four.'' That is not bad. 
That is really pretty good.
    Everyone in the class will understand strategic thought, 
but how many would be creative enough to offer a serious 
discussion with the likes of George C. Marshall?
    So we ask ourselves the question, what do you want out of 
professional military education? Well, being a product of law 
school and the agonies of studying the case work for some three 
years, what you really want is someone who is grounded, (A) in 
knowledge and (B) in the ability to think, whether it be on the 
tactical level or the operational level or the strategic level. 
And any questions whether our institutions of learning equip 
these young people to think that way with enough knowledge to 
do something about it.
    It is good, and I compliment the chairman, Dr. Snyder, and 
the entire subcommittee on what you are doing here, taking a 
good, hard look. We did yeoman's work way back yonder.
    It is interesting. Prior to our effort, there were a good 
number of studies on professional military education that went 
on the shelf, and actually we were able to actually do 
something with it. And I hope you will take it several steps 
further, because we need those thinkers out there.
    And seeing my friend, Dr. Kohn, here, who is one of 
America's truly outstanding historians, I guess I have a phobia 
that every military officer should be a historian. That is not 
necessarily something that can happen, because I was talking 
with a friend of mine, a professor of mine--a number of years 
ago. He said that some people have a sense of history like some 
people have a sense of mathematics, which means we are not 
going to make historians out of all of them, but at least they 
would have an appreciation and understanding of it.
    And if you are one of those that is gifted and you are 
wearing the uniform, you have a sense of history. You ought to 
have the capability of being a strategic thinker, or an 
operational thinker or a tactical thinker, depending upon your 
rank and where you are in the hierarchy or the scheme of 
things.
    So I compliment you on this hearing, and I wish you well. 
Thank you.
    Dr. Snyder. Thank you, Mr. Chairman.
    We have also been joined--can enjoy the presence of 
Congressman Mac Thornberry from Texas, who I would say is also 
one of the real thinkers in the Congress.
    Our witnesses today are Dr. Janet Breslin-Smith, former 
professor and department head at the National War College; Dr. 
Alexander ``Sandy'' Cochran, a private scholar who, in fact, 
has taught at every one of the service war colleges; Dr. James 
Carafano, the assistant director of the Kathryn and Shelby 
Cullom Davis Institute for International Studies at the 
Heritage Foundation; and Dr. Richard Kohn, Professor of History 
and of Peace, War, and Defense at the University of North 
Carolina in Chapel Hill.
    Dr. Breslin-Smith, we will begin with you. We will put on 
our five-minute clock, if it works properly. When you see the 
red light go off, it is a signal five minutes has gone by. If 
you haven't finished saying everything you want to say, feel 
free to continue. But I think we have votes coming up at 1:45. 
It would be nice to have your all statements done by then. Your 
written statements will be made a part of the committee record.
    So, Dr. Breslin-Smith.

  STATEMENT OF DR. JANET BRESLIN-SMITH, RETIRED PROFESSOR AND 
             DEPARTMENT HEAD, NATIONAL WAR COLLEGE

    Dr. Breslin-Smith. Thank you. Chairman Skelton, it is 
lovely to see you here.
    Chairman Snyder, Ranking Member Wittman, and members of the 
subcommittee, it is a privilege to be here and an honor, 
honestly, both the chairman's work 20 years ago, having the 
panel on PME education, professional education for military 
officers, as well as what you are doing right now. The most 
important congressional activity beyond voting is oversight, 
and so I congratulate this subcommittee.
    And I have to tell you, for the first half of my career, I 
sat on the other side of the witness table because I was 
legislative director for Senator Leahy for many years, doing 
agriculture issues in addition to defense and foreign policy.
    But for the second part of my career, I had the privilege 
of teaching at the National War College. And it is on the basis 
of that experience and a history that I am just completing 
right now about the War College that I offer my observations to 
you about that unique school in and of itself, and also some 
recommendations for the subcommittee to consider in general.
    As I said before, you are honoring really the work that was 
done in 1989 in the first really comprehensive, I think, study 
that the Congress took about professional military education. 
And now, here you are, looking at this issue 20 years later in 
a different strategic environment, and one certainly that my 
students at the War College confronted, where they weren't just 
seeing nation-states with threatening armies on the horizon. We 
were having our students and joining with them in dealing with 
a movement of people where the ideology wasn't necessarily an 
economic ideology, but basically a theology, and how does a 
military officer prepare him or herself for that type of new 
strategic environment.
    That type of question about preparing a military officer 
really intrigued me as I began my research about the War 
College, and I want to just take you for a moment back to that 
era, back in 1944, 1945, 1946, 1947, when General Eisenhower, 
General Arnold, other leaders in the military, in the midst of 
World War II, came to the conclusion--and I would say, Chairman 
Skelton, it is a remarkable event that they considered this in 
the midst of war--what they needed to do for professional 
military education for officers.
    And they worked on some things in the midst of war. And 
then, right as the war ended, they took action to try an 
experiment, and this experiment was to say not only would this 
new school for senior officers be joint--in other words, all 
four services would send students to this school--but it also 
would have representation from the State Department and the 
intelligence agencies.
    It had the support from everyone, basically, Forrestal, the 
Navy, the War Department, came together to say yes, we needed 
to do this experiment. And what is, I think, instructive about 
it in a sense of Eisenhower's own personal power, he took the 
beautiful building that had been the Army War College and made 
a new creation in this building.
    And basically, the Army War College closed for a number of 
years and reformed itself up in Carlisle later on, but he took 
this beautiful building, prime real estate in Washington, and 
made it this new institution. And as I said before, from its 
inception, it was joint, and it was inter-agency. His vision 
back in 1946 was the vision, honestly, that Secretary Gates 
talks about now. So I want to honor both Eisenhower's initial 
vision and the fact that we are both looking at this issue 
again right now.
    Not only was this school inter-agency and joint, but it had 
a focus intentionally on strategy. And again, to take you back 
at that time and how remarkable it was to think about this in 
this current era, in 1946, 1947, our first deputy commandant 
was George Kennan, the author of Containment Policy. And he 
wrote his famous articles, anonymously signed X in Foreign 
Affairs, while he was on the faculty. He formulated and wrote 
that article during that period of time.
    He established a pattern that we still follow, which is he 
wanted an in-depth look at the strategic challenge facing the 
Nation then. And so he had lectures at the beginning of the 
year on who Stalin was, Russian history, the sources of Soviet 
conduct. After these lectures--and I should tell you, President 
Truman himself came to lectures--people would adjourn to the 
commandant's house. Members of Congress would come. The 
secretary of defense came--the new secretary of defense, 
secretary of war at the time--would come, and it was an 
intellectual refuge in Washington for people of both parties 
with the executive branch to talk with educated people about 
Russia in that era, and to form a bipartisan consensus for a 
strategy that endured for generations. It was a remarkable 
time, and it is a remarkable institution.
    And I have to say, in my years teaching, and even now going 
back every once in a while and just coming into a seminar, and 
I would urge you, if you could, to do this. On any day, in any 
seminar room, you are going to hear combat veterans and 
seasoned diplomats struggle over policy issues. You are going 
to see and hear academic specialists and intelligence officers 
in deep discussion over strategy.
    You are going to hear them debate tribal issues in 
Afghanistan. You are going to hear them debate space issues. 
You are going to have people who had Provincial Reconstruction 
Team (PRT) experience, and I know this subcommittee has done 
work on this. You are going to have students from the State 
Department, from U.S. Agency for International Development 
(USAID), and Marines and Army officers compare notes on combat. 
It is still a special place.
    Now, of course, we know that all institutions change over 
time. This has been over 60 years that we have been in 
business. And I think this subcommittee is doing the country a 
service right now by reflecting on all of our institutions for 
PME. And let me say, in my reflection in doing this history, my 
first recommendation of something for the committee to consider 
actually goes back to what Chairman Skelton's original study 
also found. In fact, a number of things I am going to say today 
are in his report, this report from 1989.
    But the first one, and this is especially true for the 
National War College and also for the Industrial College of the 
Armed Forces (ICAF), the Industrial College, which is our 
sister college next to us, I believe that the Chairman of the 
Joint Chiefs has to reclaim ownership of our colleges. And I am 
just going to talk really basically about the War College, but 
everything I am saying applies ICAF.
    Both the chairman and the Joint Chiefs need to clarify the 
college's mission, enhance our leadership, establish criteria 
for appropriate faculty and student selections, and reassert 
the focus of our curricula, which is grand strategy.
    These are his schools, but there is a sense that the 
college--both colleges--have become orphans, and that the 
chairman and the joint staff are detached from this school. And 
I have to say, naturally, it is a totally understandable 
phenomena that all the service chiefs would automatically give 
preference and give more attention to their own service 
schools, without question. And that is why it is even more 
important that the chairman establish ownership of National War 
College.
    I specifically think he needs to strengthen our leadership 
and the criteria for leadership. As a faculty member, I know 
the value of a good dean of faculty, and certainly we have a 
good tradition at the War College, and strong faculty. And I 
will get to faculty in a minute. I am out of time already.
    Let me just say quickly, I think that the commandant should 
have a longer term of office and should come committed to 
leadership of this institution. I believe the commandant should 
teach.
    I also believe we need to revive a board of consultants. 
The War College had that for 30 years. I think we need the 
oversight of an outside board specifically addressed to our 
program.
    My comments about the faculty, both military, civilian and 
agency, are in my remarks. I do believe that the student body 
itself, the selection needs to be carefully undertaken by the 
services to make sure they get the best use out of this 
education.
    I think our program is appropriately focused on strategy. 
And I have copies here of our syllabuses if you would like to 
look at how we address this issue.
    Finally, I want to say a word about our experience in Iraq 
and the comments that have been made in the press about the 
failure of generalship. Since many of the general officers in 
both of these wars are war college graduates, I think it is a 
careful issue for us to consider, and I go into this at length 
in my testimony about how we approach this issue.
    I also want to say that I think both in terms of 
preparation for these types of strategic questions as well as 
civil-military relations, they are both issues that the college 
is confronting directly.
    Finally, I want to make a last comment about just the 
inter-agency aspects and going back into history. As I 
mentioned before, General Eisenhower was vitally involved in 
our formation. And at the time, his original idea, and among 
others at the time, the post-war period, was to have five 
colleges.
    The original proposal was to have a consortium of schools--
the War College, which did happen, the Industrial College, 
which was reformed and structured then. There was to be an 
Administration College, an Intelligence College, and a State 
Department college.
    I think this subcommittee might look, maybe even with your 
sister committee, foreign affairs, at the idea of reviving this 
idea and having a College of Diplomacy and Development as a 
sister school for us again so that we could work together and 
that they could form the intellectual foundation that Chairman 
Skelton was looking for when he did this review panel 20 years 
ago.
    Thank you.
    [The prepared statement of Dr. Breslin-Smith can be found 
in the Appendix on page 48.]
    Dr. Snyder. Thank you, Dr. Breslin-Smith.
    Dr. Cochran.

 STATEMENT OF DR. ALEXANDER S. COCHRAN, HISTORICAL ADVISOR TO 
           THE CHIEF OF STAFF OF THE ARMY, U.S. ARMY

    Dr. Cochran. Mr. Chairman, thank you for the honor of 
testifying at this distinguished subcommittee.
    My comments deal with the service war colleges and are 
based on my 15 years of teaching experience at all of these 
institutions. On a recent study that I completed while at the 
Wilson Center about these institutions, in my written statement 
I offer some observations based upon my teaching and some 
suggestions from my reflections.
    In the interest of time, I would like to focus my 
suggestions in these comments here on three, four fields: 
faculty, students, governance, and curriculum. I add that these 
represent my own opinions and certainly not the Department of 
Defense.
    On the faculty, let there be no debate: faculties make or 
break an institution. The Skelton reforms of the past 20 years 
significantly enhance that faculty expertise, particularly with 
respect to the civilian faculty.
    It is as a department chair and a faculty member I 
experienced an unintended consequence that needs, I think, your 
attention--that is the aligning of two different camps, each 
with their own professional standards, military versus 
civilians, kind of a ``we'' versus ``they.''
    And a new category, unanticipated I think at that time, of 
retired military faculty; all too often, officers that lack the 
academic credentials of their civilian counterparts. I believe, 
personally, this can be easily corrected if the war colleges 
reclassify their faculty as either field experts or academic 
specialists.
    Secondly, the war colleges' delivery of curriculum as 
mandated by Mr. Skelton's reforms is that of seminar, the most 
demanding of the teaching profession. Teaching at war college 
is tough, with little time for outside research and writing.
    The problem is compounded, in my experience, with the 
practice in the war colleges of all students receiving the same 
seminar experience at the same time by all members of the 
department, something I think that few civilian institutions 
would try. Solutions here, I think, are innovative scheduling, 
the possible increase of faculty size, or creating more 
curriculum contact time, a point that I will mention shortly.
    On students, in my view, it is a matter of quality, not 
quantity. Though the size of our services have been 
significantly reduced over the past 20 years, the same number 
of officers attend. My experience has taught me that a 
significant number of these students really don't want to be 
there, either that or they are not academically prepared.
    I believe this can be corrected by instituting an 
application process. Students, by making individual 
applications with the appropriate credentials to separate war 
colleges rather than the current practice of being selected by 
the personnel system based on their past service, and the 
colleges would have to accept them.
    On the other end, my experience indicates that up to one-
third of the graduates will leave the service after one tour. I 
believe that graduates should incur a service obligation of at 
least five years, or two subsequent assignments, so the 
services and the taxpayers can gain maximum return with this 
outstanding block of instruction rather than the current two 
years.
    With respect to governance, two comments, and part of 
these--I think Dr. Smith has raised that of leadership and 
organization. Each war college president, or each war college 
has a president, a commandant or a commander.
    During my teaching experience, the average tenure of that 
position was about two and a half years. This is simply not 
enough time to make a difference, as one needs at least one 
year to become familiar with the process, and then one year to 
make the changes. War college presidents, in my view, should 
remain in position for a minimum of 5 years, a maximum of 10, 
with the same ``tombstone'' promotion model used at many of the 
service academies of a promotion to one grade higher upon 
retirement.
    On organization, while each war college does some things 
better than the others, they simply don't seem to talk to each 
other. Each has fashioned its own unique mission statement with 
varied departmental alignments and bureaucratic arrangements.
    At the senior level, there is the so-called MECC, Military 
Education Coordination Council. Yet, its title speaks 
rhetorically to its advisory role. I would argue what is needed 
is an office that fosters, indeed mandates just more than talk, 
such as the chancellors that you find at large state university 
systems. Here I would envision an Office of the Secretary of 
Defense (OSD) chancellor of war colleges, or chancellor of 
higher education, with not only fiscal, but some kind of 
statutory authority.
    Lastly, curriculum, thought to be the most essential, and 
Ike Skelton's charge here, vigorous, vigor. My experience is 
that, given a quality faculty, a receptive student body and 
enlightened leadership, vigor in the curriculum will take care 
of itself.
    Each war college delivers a common curriculum, with minor 
differences--field trips, electives, and what have you. The 
common aspect of all is they try to do too much in too short a 
time, resulting in a mile-wide, inch-deep approach. I would 
suggest what is needed is focus. I would suggest doubling the 
in-residence time from the current 9 months to 18 months. This 
would permit hard decisions on that most common curriculum 
quandary, what not to teach.
    To build this focus, each war college needs to be 
designated as a particular center of excellence to itself. The 
Army War College for leaders, people who are going to go on to 
strategic leadership positions, such as wings, ships, brigades. 
National War College for positions involving the formulation 
and execution of national security strategy.
    Industrial College of the Armed Forces to deal with 
resource implications. The Naval War College to deal with 
theory. The Air War College at Maxwell to deal with technology, 
thus allowing each student to major in a particular area which 
would be important in his or her application. Service 
competence can simply be taught through electives.
    In conclusion, all war colleges are justifiably proud of 
their programs, yet this pride, in my view, has created intense 
protectiveness. And I would suggest, as was done 20 years ago, 
Congress can probably step in to give them some help.
    Thank you.
    [The prepared statement of Dr. Cochran can be found in the 
Appendix on page 59.]
    Dr. Snyder. Thank you, Dr. Cochran.
    Dr. Carafano.

   STATEMENT OF DR. JAMES JAY CARAFANO, ASSISTANT DIRECTOR, 
  KATHRYN AND SHELBY CULLOM DAVIS INSTITUTE FOR INTERNATIONAL 
                  STUDIES, HERITAGE FOUNDATION

    Dr. Carafano. Honored is not the right word. I am 
flabbergasted to be here. There are few issues that I am more 
passionate about than this. Twenty-five years in the Army, I am 
a product of the PME system and every level up through the war 
college. And in my Army career and since then, I certainly 
worked with, lectured at, or been involved with all of the Army 
schools and all of the staff colleges and all the war colleges.
    I have four ideas I want to put on the table. I think they 
are more than out of the box. I think they are out of the 
closet, so you may just want to dismiss them. But I just want 
to put the four out there.
    And as a preface, I just want to say I think you are 
exactly right in saying that you start with understanding 
officer PME and you grow from there, and that that is the 
touchstone of all. And that you start at the finish, that you 
start with understanding senior professional military 
education, and then you work backwards from there. So I think 
the focus of this committee is absolutely spot-on.
    So the four ideas I would propose very quickly, is--the 
first is I think the war college comes simply too late in an 
officer's career. The senior professional military education 
ought to come at the 10-year mark, and I would be happy to go 
into the logic behind that.
    But it ought to happen somewhere between the 5 and 10, 12-
year mark, and it ought to be universal. It is the one thing 
that Goldwater-Nichols got wrong, which is tying JPME to 
promotion. Every officer needs JPME-like skills, and they need 
them very early on in their career.
    The second point is I think we should move to a model that 
looks much more like the ROTC model, where the colleges, the 
formal war colleges remain as the touchstone of the ethic and 
the focus of the professionalism of the services and the 
military, but that senior professional military education be 
expanded throughout the entire civilian architecture, and that 
we do PME as well at civilian institutions.
    The third point I would make I think is really, really 
vital. We are suffering from PME inflation. We are layering on 
more and more and more things, and today everybody has got to 
be Lawrence of Arabia, and who knows what tomorrow is going to 
be?
    And we ought to be going in exactly the opposite direction. 
We need to much, much more narrowly focus what PME, senior PME 
is, and we ought to have a really rigorous and tough debate on 
exactly what that is.
    And the fourth point I would make is JPME is not inter-
agency education. Inter-agency is all the vogue now, whole-of-
government. I think that is right. I think we need a 
professional development system for the inter-agency community.
    But obviously, the military is way out ahead in 
professional development, but what we have seen in recent years 
is people say, ``Well, we can just take JPME and we can bring 
in some State Department folks, and we can make this inter-
agency,'' or other people can learn from us, and that is simply 
wrong. You cannot start building an inter-agency curriculum--
and it is an inter-agency professional development program--on 
the back of JPME. It is wrong-headed.
    JPME is a component of that, needs to interface with that, 
but we need to build the inter-agency professional development 
program on its own merits. And I think there is a great place 
for a dialogue, and this committee could play a great role in 
doing that.
    That is really the four things I have come to say. And I 
think that these reforms are absolutely fundamental. I don't 
disagree with many of the things that Sandy and Dr. Smith have 
said. But again, I think it is too late in the officer's 
career.
    I think everybody needs it. I think we are too narrowly 
focused in just using the war colleges to deliver this 
education. And I think it is a piece. But again, inter-agency 
education and professional development are something else. We 
ought to have those discussions in tandem, not think that we 
can just expand that from JPME.
    Thank you.
    [The prepared statement of Dr. Carafano can be found in the 
Appendix on page 63.]
    Dr. Snyder. Dr. Carafano, no college lecturer finishes the 
lecture before the end of class.
    Dr. Carafano. Well, I do have one other----
    Dr. Snyder. There you go. I knew it. You are off and 
running----
    Dr. Carafano [continuing]. And that is calling it a 
``tombstone'' promotion may not be the best marketing tool.
    Dr. Snyder. Dr. Kohn.

  STATEMENT OF DR. RICHARD H. KOHN, PROFESSOR OF HISTORY, AND 
PEACE, WAR, AND DEFENSE, UNIVERSITY OF NORTH CAROLINA AT CHAPEL 
                              HILL

    Dr. Kohn. Chairman Skelton and Chairman Snyder and Ranking 
Member Wittman, thanks for the opportunity and the honor of 
testifying on this subject this afternoon.
    I have been associated with the subject in one way or 
another for over 40 years, and I believe Mr. Skelton's 1989 
report is still the best discussion of the potential and the 
deficiencies of PME and of the solutions that has ever been 
written. Most of those problems remain, although there has been 
some marked improvement. The mission of the schools remains as 
it has always been--to educate officers in the waging of war.
    At every level, PME has yet to reach the level of our 
better colleges and professionals schools in rigor or quality. 
Faculties are still less trained and distinguished, the 
academic workload is far less, and the focus and curricula 
sometimes stray from the mission.
    At the academies, too much engineering crowds out the 
social sciences. The Air Force Academy in the last 25 years has 
gone from four to two required courses in history, and there is 
no American history, which means that Air Force officers don't 
learn fundamental things about the client.
    At Carlisle, the Department of Command Leadership and 
Management teaches leadership without any historical study. 
None of the schools use the case study method to any extent 
like civilian professional schools in law, business, and 
medicine.
    Senior staff schools, as I agree with my colleagues, still 
don't sufficiently emphasize strategy. Indeed, the Army War 
College was, a few years ago, moved under training and doctrine 
command, which does not have the term ``education'' in its 
title.
    I think the common problems, to me, are structural, 
organizational, and cultural; structural in the way students 
are selected, graded and worked, resulting often in a low 
common denominator and poor motivation; the way faculty are 
selected and used, resulting in tensions of a mixed civilian 
and military faculty; in the difficulty of finding active duty 
officers with the proper experience, academic training, and 
military background; and in the leadership, putting in command 
flag officers who are often inexperienced and unprepared for 
leadership in education.
    Organizational, in that PME falls under personnel systems 
that slavishly force officers into proscribed careers; focus on 
staffing the operating forces, and privilege the operational, 
resulting in PME becoming for many officers a square filler, a 
relaxed break from demanding operational tours; and 
discouraging officers from faculty duty because the graduate 
education and time teaching almost always harms them for 
promotion.
    Cultural in the sense that PME is shaped by the careerism 
in the military profession and, to some degree, the anti-
intellectualism of the officer corps. The norms and attitudes 
and thinking that confuse education with training and disparage 
learning and reading and schooling and favor experienced 
command, physical prowess, and fraternal compatibility, and I 
think is suspicious of academe and academic work because it is 
viewed through a caricature partly derived from popular culture 
in the United States.
    In the end, two things have influenced PME in the last 20 
years in a positive direction. First, the efforts of Mr. 
Skelton and his colleagues, his careful investigation and wise 
thinking, and I must say his relentlessness of focus; and 
second, the drive to give master's degrees at the staff and war 
colleges, which forced an upgrading of the faculties at those 
institutions in order to qualify for accreditation, although at 
a significant, and in my judgment, dangerous cost.
    Let me close by talking of George Marshall, the preeminent 
soldier of the 20th century, who spent three years at 
Leavenworth and taught at two other Army PME institutions.
    He remembered his first year as, ``The hardest work I ever 
did in my life. My reading, of course, was pretty helpful,'' he 
noted, ``as was my study of past operations. I learned how to 
digest them. My habits of thought were being trained. While I 
learned little I could use, I learned how to learn.'' I think 
few of today's officers would say the same about their PME.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Kohn can be found in the 
Appendix on page 69.]
    Dr. Snyder. Thank you, Dr. Kohn.
    Chairman Skelton, would you like to have some questions?
    The Chairman. We have to leave at, what, 6:00 this evening?
    Dr. Snyder. Chapter one.
    The Chairman. Well, I think this is fantastic, and I 
appreciate each one of you testifying, your testimony and your 
excellent thinking.
    I hearken back to a hearing that we had at Ft. Leavenworth 
some 20 years ago when I made the then major general in charge 
of the Fort Leavenworth Command and General Staff College--his 
last name was Sullivan--answer the question about the caliber 
of his instructors, because we had just run into a group of 
lieutenant colonels who were teaching earlier that day who were 
complaining they did not make the cut to go there as majors, 
and yet they were there teaching. And I elicited, over a great 
deal of prodding, the fact that his faculty was less than what 
he had desired.
    I note your comments about the caliber of the faculty and 
faculties today. All of us can hearken back. I guess I do, back 
to law school. The toughest instructors at the time, they were 
not very popular, but I will never forget. After I took the Bar 
examination, I said one thing I am going to do, I am going back 
and see Dean McCleary and thank him for teaching me torts, 
because if there is any part of the Bar examination I know I 
passed, I know I passed that.
    And it is that type of instructor that you would like to 
attract and keep, and it is a bit concerning when I hear that 
all the instructors are not of that caliber. I compliment you 
for your efforts today, and I hope we can take away from this 
some lessons for tomorrow.
    We don't want other people to out-think us. And hearken 
back to law school again, Mr. Chairman. There were not many 
cases that I handled, and I did a great deal of trial work for 
20 years, there were not many cases I handled that were exactly 
like what I studied in law school. But as a result, I had to 
think about things, and I was able to handle them, some of them 
successfully. And that is what you are looking for here.
    Thank you.
    Dr. Snyder. Thank you, Mr. Chairman. We will put 
ourselves--Mr. Wittman and I will put ourselves on a five-
minute clock, and we will probably have time for him and I to 
ask questions--go ahead and start that, Lorry--and then we will 
come back after break.
    When we started this, it was in the--and it still is in the 
spirit of revisiting it, what kind of improvements can be made, 
what things can Congress do, what kind of recommendations we 
might make to the services or the Pentagon. But I think we kind 
of stumbled into, and perhaps should have gone in with our eyes 
open, more existential questions. The Tom Ricks piece called 
for the closure of the academies and the war colleges, and he 
was a big believer in ROTC. Dr. Kohn, I think you recommended 
the closure of ROTC. I am not sure where everybody is going to 
go, or what is distinctive about it.
    But I would like you all to talk about, maybe very briefly 
in a minute each, just existentially what this means, what 
would you recommend this subcommittee recommend to Chairman 
Skelton that flat-out gets closed?
    Dr. Breslin-Smith.
    Dr. Breslin-Smith. Well, I guess I don't agree.
    Dr. Snyder. I didn't think you did.
    Dr. Breslin-Smith. And I have taught in both situations. I 
have taught at universities. I have taught at Syracuse and the 
University of California at Berkeley, and I know the type of 
excellent education they provide.
    But at least in the case of the War College, and I think a 
number of the other schools here, the type of interaction that 
happens in the classroom--again, going back to Eisenhower's 
image of this--is exactly what we talk about these days. How do 
we get a total national security team, USAID, State and 
military officers, to be able to work together, understand each 
other's culture, before they are in the field together?
    So the type of education that goes on wouldn't be 
accomplished if you have everybody going to a university taking 
political science or international relations classes. I take 
issue with this question, even in terms of Dick's [Kohn] 
statement that people who come out of PME did not get anything 
out of it.
    I have been tracking my students who graduated in the class 
of 2005, which was the first class coming after taking down the 
statue in Baghdad. And as I watched the growth and development 
of their thought--and I hope to do a retrospective analysis of 
them, because they are all making one-star right now--that 
experience in terms of the type of questions to ask, and 
hearing the types of questions the State Department person asks 
compared to what a Marine would ask I think is part of the 
educational process of the War College.
    Dr. Snyder. Dr. Cochran.
    Dr. Cochran. I would close one of them, and I would close 
the Basic Course. I have spent a total of 30 years as an active 
duty and a Reserve officer, and I went through all levels. And 
I am trying to think. That is a hard question.
    I would close the Basic Course, because I think when you go 
on active duty as a young officer, you turn yourself over to a 
non-commissioned officer (NCO), and the NCO's first job is to 
train you, not educate you, train you. So if I had to save time 
and close one, I would go to the Basic Course.
    Dr. Snyder. I am not saying you have to close anything.
    Dr. Carafano.
    Dr. Carafano. Yes.
    Well, first of all, I think Tom's article couldn't have 
been more ignorant. I mean, we have had this debate. We have 
had it over and over again. It is him rediscovering this stupid 
debate.
    And he fails because he fundamentally does what they all 
do, is they say, ``Well, it costs this to educate somebody 
here, and it costs somebody to educate their own products,'' he 
is saying.
    So first of all, he misses the big picture, which is the 
academies and the war colleges, they have numerous products, 
and the students they produce are only one of them. Yes, they 
produce students, but they also produce faculty.
    And that faculty goes on, whether in the service or other 
places, to significantly influence military developments. If 
you look at who did the surge in Iraq, virtually from Petraeus 
on down, it is littered with former faculty from the military 
academy.
    And then, the third product is institution itself. It does 
research. It produces conferences. See, you have got to look at 
all those products. It is not just what is student cost 
analysis. It is a student cost-benefit comparison.
    And the reason why you have academies is simple. It is the 
same reason why you have a gold bar that measures a foot or an 
atomic clock that measures a second.
    Somewhere you need an institution, which is the touchstone 
of the professional ethic, that talks about what it means to be 
an Army officer, what it means to be a professional, what it 
means to be ethical. And you want to control that in-house. You 
don't want to outsource that, just like you shouldn't outsource 
lots of things.
    You don't want to outsource the ethic. And the academies 
and the war colleges, they are the touchstone, the ethic, the 
professional touchstone of the military, so you never want to 
give that up.
    There are schools that we need to close. I mean, if you 
accept the notion that young men and women between the ages of 
25 and 30 can assimilate senior professional level education at 
the graduate level of the highest caliber, right, and you want 
to do that early in their career, well, we have got too many 
schools between zero and 10, so something has got to go.
    And I think we could have a good discussion on that. I 
don't think necessarily it is the staff college level, but I 
think that somewhere between the basic and the advanced course, 
there is some stuff that can be put out so we can let guys have 
a better balance between operational time and school time. But 
we have got too many schools. It is true.
    Dr. Snyder. Dr. Kohn.
    Dr. Kohn. Dr. Snyder, I think that trying to close these 
institutions or to radically transform them would be extremely 
difficult. And I think that is in your political world. I can't 
address that.
    But I think what the committee can do is to insist upon 
levels of quality up to the standard of American higher 
education, which, after all, leads the world. And you can do 
that, I think, by certain stipulations having to do with 
faculty, by reviewing the way in which PME exists in the 
personnel systems, by looking at the selection of students, as 
has been recommended here and as I talk about in my statement, 
by looking at the selection and tenure of the leadership of 
these institutions, and by trying to institute some outcomes-
based studies of the research I think that the committee might 
undertake, for example.
    What is the retention rate of the academies compared to 
ROTC at the 10-year mark, which I think is a good place? What 
is the average tenure on active duty of war college graduates 
in the sense of the taxpayers and the services getting the 
cost-benefit? How do these institutions fit into the culture of 
the armed services, and how are they viewed?
    There are all kinds of modifications that can be made on 
the margins, but I think the most important thing the committee 
can do is to insist on the excellence that the services 
themselves and the chairmen set for themselves in every other 
walk of--or characteristic of their armed services, and the 
standards are there.
    Dr. Snyder. Before we go to Mr. Wittman, I want to be sure 
I understand what you are saying, Dr. Kohn. On page 17, you 
have a section where you say, ``Other considerations 
underlying, abolishing the academies and ROTC.'' Are you saying 
you are not recommending we abolish the academies and ROTC?
    Dr. Kohn. Well, what I am saying is that you could do that 
with a system of national scholarships in which you go to the 
American people and allow them to take a scholarship to the 
school or university or college of their choice, and you could 
do away with the academies or convert them to one-year courses 
for graduates of colleges.
    Dr. Snyder. So you are presenting that as an option, not as 
a recommendation?
    Dr. Kohn. That is an option. But I think that, from a 
practical standpoint, the idea--these institutions have 
spiritual value, as Jim has implied.
    Dr. Snyder. Mr. Wittman, you want to get your prepared 
questions now?
    Mr. Wittman. Thank you, Mr. Chairman.
    You all make some very, very interesting, divergent, and 
thoughtful recommendations. And we know our PME institutions 
have evolved, but they are still based on a structure that was 
put in place before the placement of the Department of Defense.
    So kind of taking the reverse look at this, if we were to 
start today from scratch, what are your thoughts about what PME 
should be today, the institutional structure, what incentives 
we ought to have there to attract students, what incentives we 
ought to have to have officers there? Just those sort of 
things.
    So if we were to start to scratch today, what should our 
PME system look like?
    Dr. Smith.
    Dr. Breslin-Smith. I have to say I would still go back to 
my original observation.
    And the recommendation is I think that type of discussion 
would be really profitable to have with the Chairman of the 
Joint Chiefs in general, in that what is their vision of the 
role of education for officers, regardless of how it is 
established or provided, because usually when I am talking to 
somebody at the Pentagon, I will get this response.
    When I make the plea to have more involvement, they will 
say, ``Janet, we are fighting two wars. All these things are 
going on.'' And PME is at the end of that list of things to do. 
So I think that is the first challenge to take on.
    Mr. Wittman. Dr. Cochran.
    Dr. Cochran. Sir, I think I would rethink very hard service 
parochial approach. And when you go back in our history, we had 
an Army that stood alone, a Navy that stood alone and developed 
its own system. Then, in the Second World War, you bring the 
Air Force on. And each service kind of shaped that.
    We are at a crux point now where service--we have gotten 
through jointness. Our next challenge--and I think the next 
challenge for you is to confront the inter-agency. How do we 
handle that?
    And if I had a license to re-think, I would start with 
that. Okay, we are now inter-agency. Jointness is accepted, 
service parochiality. What are we--based on that, where do we 
go? That is the approach I would take.
    Dr. Carafano. If I was going to make three points, I would 
make these points.
    And the first is, again, I would have the senior 
professional military education take place between, say, 
somewhere between 10 and 15, and there are 4 reasons for that. 
First of all, it is because you can do it. I mean, we know for 
a fact that people between, say, 25 and 30 can accept--have the 
brains and the experience to adapt and--of the most 
sophisticated professional educations we can hand out.
    The second is, when you do that, you establish somebody for 
a lifetime of learning. What made Dick a world-class historian 
was not where he went to grad school. It was the practice of 
historian's craft after that. But he couldn't have done that 
without that.
    So when you give somebody that at 10 as opposed to 20, 25 
or 30, they have 15 years to practice that lifetime of 
learning, and so they are going to be that much smarter.
    The third point is they are going to be a better mentor, 
because they are going to have those senior professional skills 
earlier on, so they will be a better mentor throughout their 
career.
    And the fourth point is they are going to be better leaders 
because they are going to have better, more sophisticated 
skills much earlier in their career.
    So why universal? Well, two reasons. First of all, I mean, 
we have seen this over and over again in Iraq and Afghanistan, 
and we see this in business every day, where people at very 
junior levels have to exercise very senior levels of critical 
thinking and very senior levels of professional skill. So 
everybody needs these skills, and they can't wait until the war 
college to get them.
    And then, the second point is I don't know who the next 
George Marshall is, right? And what we do now is we wait until 
the very end to try to pick him out, right? And what we ought 
to be doing is we ought to be putting more bets on the table. 
If we educate people with this super charged education, which 
allows them to become a Dick Kohn or a George Marshall, right, 
early on we will have a bigger body of people to choose from. 
And we will have leaders who we may not think we meet 10 or 15 
years from now, and 10 or 15 years from now we will discover, 
``Oh, my God, that is the guy or the woman I really need.''
    So that is why universal. And just the third point, very 
quickly, is why spread this to civilian universities? And three 
points.
    First of all, competition. The best way to make the war 
colleges better is to make them compete for the best students 
with civilian universities. One of the arguments for ROTC is it 
bridges the civilian-military divide, that we have officers who 
were trained in civilian universities, that they understand the 
civilian side. They bring that in.
    You can make that same argument for the war college 
experience, our military officers getting their senior 
education. That would bridge that civil-military divide.
    And the third is diversity, more colleges, more 
experiences, more geography, more languages. That is going to 
enrich the breadth of experience that these different officers 
bring back into the military.
    Dr. Snyder. We need to run for our votes, so why don't we 
recess now? And then, when we come back, Mr. Wittman will hear 
from Dr. Kohn. And then, if Mrs. Davis comes back, we will go 
to her.
    [Recess.]
    Dr. Snyder. Let us resume. I am not sure what the schedule 
is for the rest of the day, do we know, on votes. We do not 
know, so we are--have an open mind here this afternoon.
    Mr. Wittman was finishing up there. Take as long as you 
want.
    Dr. Kohn. Mr. Wittman, thanks for the question. It is a 
good one.
    And at the risk of confusing Chairman Snyder, I want to say 
that what I meant in that provision was that you could replace 
the academies and ROTC with a system of national scholarships. 
So in response to your question of what I would do if I could 
design the system whole cloth from the beginning is, at this 
point in time, I don't see a need for a separate educational 
system at the pre-commissioning level because we have such an 
outstanding and comprehensive system of higher education in the 
United States at the collegiate level.
    My concern about the academies today is that they cram so 
much into so little time, and I wonder whether they are really 
providing an adequate college education for a lifetime of 
learning and development in the military profession. So from 
the beginning, I would have the system of national 
scholarships, but I would have these youngsters serving in the 
Reserves as enlisted people while they were in college so that 
they would learn what it is to be led as well as what military 
service is about.
    At the intermediate level, I would focus on the operational 
as I think the intermediate service schools did, or at least 
the Army did, in the first four decades of the 20th century, as 
well as teaching some other materials that they might need to 
use as mid-grade and field-grade officers. In both cases, 
though, I would advocate the mixing or jointness.
    For example, if you retain the system of academies that we 
have here now, there is no reason why youngsters could not have 
a junior year abroad. Even if they play football, it might be 
good for a Naval Academy midshipman who is a star football 
player to have to play for the Army in his junior year. It 
might indeed provoke some feeling of ecumenicism in response to 
the very powerful service-specific culture that students learn 
at the academies.
    At the senior level, I think at senior service school, I 
would have one National Defense University. If you really want 
to teach jointness, and I have thought of this many years ago, 
you would have one war college where the students are mixed and 
where they learn strategy and they learn political-military 
affairs, and where you could have an equal number of students 
from the civilian agencies of government.
    If my colleague, Jim Carafano, is right, you could cut down 
the numbers so that you wouldn't have to have so many officers. 
But if you still had a National Defense University with a 1-
year, and in some cases a 2-year course for those who are 
identified as needing 2 years for a particular specialty, 
particularly to be strategists, and you had 2,000 to 3,000 
officers at the National Defense University, that would be 
fine.
    But I would add one more thing to this, and that is that I 
would try to identify early on, on the basis of their academic 
accomplishments in college and immediately afterwards, who were 
those officers who could pursue a career of outstanding 
operational accomplishments and academic accomplishment. One of 
the fears that I have with the teaching of strategy is that the 
armed services will delegate strategy to a core of specialists. 
I think the Army is doing this with their basic and advanced 
strategic art program at Carlisle.
    Flag officers need to know strategy because they are the 
ones who have to make the choices. They are the ones who don't 
just apply strategy. They are the ones who recognize what are 
the best strategies, recognize the original strategy.
    So to me, every officer who has the potential to go into 
the flag ranks and may be in command at some point needs to 
have familiarity with strategic thinking. And the best way to 
do that, in my judgment, at intermediate and senior service 
school is through the case study method, and not theory, and 
not theoretical or hypothetical case studies, but historical 
case studies. How about studying the reality of past warfare?
    I once--with a very distinguished officer who was then 
later the dean at the National War College designed a whole 
curriculum for Air Command and Staff College and Air War 
College that consisted completely of historical case study. 
When the Chief of Staff saw it, he smirked and said, ``I see 
the historian has been in charge of this exercise.'' And I 
said, ``Chief, this is not a history curriculum. This is just 
case studies according to the way the best professional schools 
teach their subject.''
    Dr. Snyder. Mrs. Davis for five minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you all for being here. And it has been interesting 
to listen to all four of you.
    I think one of my question was just, if there is something 
that you heard from one of the panelists, any of you, that you 
either intensely disagree with or think that is really 
important--you have talked a little bit about ROTC and the role 
that ROTC should play, and I know there is a difference of 
opinion there. I am just wondering if there is something that 
really stands out. Those of us were trying to listen to all of 
you, and what----
    Dr. Breslin-Smith. I have got something to say, but I don't 
want to go first.
    Dr. Kohn. I will start.
    Dr. Breslin-Smith. Yes, you can start at that end.
    Mrs. Davis. You are all--have very good, strong points of 
opinion, and I am just trying to sort them out a little bit in 
terms of----
    Dr. Kohn. Well, I would start.
    I don't agree that the strategic level and the national 
political military levels, particularly civil-military 
relations, which has been my scholarly and, to some degree, 
teaching specialty all my career, should be imposed upon 
officers at the 10- or 12-year mark.
    I think that one of the disagreements I have with the 
personnel systems of the armed services, and I have many with 
those, is that we are the most wasteful military in the world. 
We throw away these officers in the up-or-out system at the 
height of their powers, and nowadays people are much more 
active and much more vital at a much older age. And I think we 
ought to be keeping officers longer, and we ought to modify up-
or-out.
    And for this reason, I think that you could, and should, 
have a system of professional military education that is 
appropriate to the level at which officers will serve. And I 
wouldn't cram it all into the early or the first 15 years when 
officers are really focused on command and on competency in 
their form of warfare and learning staff and the operations.
    And I wouldn't abolish ROTC unless I could replace it with 
something. Again, I would emphasize that this committee could 
act in innovative ways to strengthen what we have rather than 
having a knock-down-drag-out Armageddon-type fight with the 
services over abolishing or consolidating.
    Dr. Carafano. Yes. I guess Dick and I actually completely 
disagree on this, which is great, because that is what we do. 
And I think the one thing I would be most disappointed is if 
fundamentally we came back with the exact same model which we 
have now, which is basically just-in-time education.
    If you look at the PME system, it is designed to provide 
the officer the educational experience needed, and then go 
forth in an operational assignment and apply that, right? And 
that is great in an industrial age world where everything is 
programmed and knowable, which is why the system endured so 
well during the course of the Cold War, because life was 
incredibly predictable.
    We knew where we were going to be assigned. We knew what we 
were going to do. We knew what captains did. We knew what 
majors do.
    Not to digress for a second, but I will anyway, and Dick 
may correct me if I am wrong. But I think one of the most 
inspirational periods in officer professional development was 
the inter-war years between the 1920s and the 1940s.
    And the reason why I believe that is because nobody ever 
got promoted, but also nobody ever got fired. And what was 
great about that was, in those formative years in their 30s, 
officers could basically do whatever they wanted to. If they 
wanted to play polo, they did. If they wanted to sit in their 
library and read, they did.
    And the result of that? We had an officer corps which I 
think was unprecedented in terms of its breadth of experience 
and knowledge and skill sets and attributes it brought to the 
table. And when you went to World War II, we had totally 
unpredictable environment, in a sense. You could look in the 
bag, and there was a Stovall for China. There was a Marshall 
for Washington. There was an Eisenhower.
    And I guess in my heart of hearts, I want to get back to 
that, and I want to give officers, early on in their life, the 
deep toolkit for a lifetime of learning and critical thinking, 
and then I want them to go forth and prosper. Now, I am not 
opposed to formal educational experiences at the 20-, 30-, 40-
year mark. We have similar things in other professions in terms 
of post-doc opportunities or continuing education 
opportunities, like they have for judges and other 
professionals.
    So I am not opposed to that, but I guess I fundamentally 
disagree with Dick. I think just-in-time education is a very 
bad--it is a great model for getting toilet paper into Wal-
Mart. It is a horrible model when you can't know the future and 
when the future can become incredibly different in terms of the 
requirement and the needs in a very short amount of time, and 
you need an officer corps that is agile and mentally able to 
adapt to that. And I just want to give them those tools as 
quickly as I think they can possibly take them on.
    I know where I disagree with everybody on this panel. It is 
implicit, but this whole business of awarding a master's 
degree. Its time has been served thanks to Mr. Skelton and 
pressuring the services, particularly war colleges, into 
awarding a master's degree. That is fine. But the degree itself 
has become worthless. Everybody who goes gets a master's 
degree, and they don't even apply. It is abused.
    You ask people in the business of higher education, if you 
have a master's degree at one of these war colleges, will that 
be accepted at a university for entrance into their Ph.D. 
program? No, it will not. It is a meaningless degree in a lot 
of ways.
    And I don't want to demean it. It is tough to administer 
when you have faculty that don't have a Ph.D. to administer the 
exams involved with a master's degree.
    A large number of the students particularly at the war 
college level, particularly in the Air Force, arrive already 
with a master's degree, and you are going to tell them, ``You 
are going to get a master's degree here, and we are going to 
work you hard for it,'' and the answer is, ``I already have one 
of those.''
    Also, all of the intermediate schools--check me on this. I 
am not sure on this--all of the intermediate schools have--
School of Advanced Military Studies (SAMS) program have a 
legitimate two-year master's degree program, which is a 
legitimate program.
    So I just think the usefulness of that master's degree has 
passed. It is time we just forget about it and drive on. And I 
know everybody at this table will disagree with me.
    Dr. Breslin-Smith. No. I agree with you.
    Dr. Cochran. You do?
    Dr. Breslin-Smith. I think----
    Dr. Snyder. Let's see, I have got--just for the sake of our 
poor transcriptionist here, Dr. Carafano, you said, what, you--
--
    Dr. Carafano. Well, yes. I mean, I agree with the point 
that a master's degree that isn't really a master's degree 
doesn't have a whole lot of utility.
    Dr. Snyder. And then, Dr. Breslin-Smith?
    Dr. Breslin-Smith. I think it--yes, for a specific reason I 
will get to, but yes.
    Dr. Snyder. Go ahead. What is your specific reason?
    Dr. Breslin-Smith. Well, I think the type of education we 
provide----
    Dr. Cochran [continuing]. One thing. That is what causes 
this dysfunctional ``we and they'' military and civilian issue 
at war college faculties. Who are you to administer this 
degree?
    Dr. Breslin-Smith. And I can actually----
    Dr. Snyder. Dr. Breslin--get back to Dr. Kohn.
    Dr. Breslin-Smith. Later on, after this is over, I can give 
you the history of why this came to be, why, during the Johnson 
Administration during Vietnam, we got into this pattern of the 
military responding to McNamara. That is how we got started 
doing the master's degree issue.
    Again, to me, the value in what we do is seen every day in 
the seminar room, and it would happen with or without master's 
degree. The institution itself, war college--was not set up.
    He could have set up a research university. Honestly, he 
could have done anything in 1946. He did not. He did not choose 
to do that. This is a professional school.
    And I want to make one other comment about our sister 
school, ICAF. I also believe ICAF needs to go back to its 
roots. This should be its day in the sun. We are facing an 
economic crisis. The industrial base is under severe pressure. 
We are losing the transportation industry. We are facing this 
crisis. That is what they were set up to do, to evaluate, 
assess, and study mobilization of the industrial base.
    Over the years, they have--just like all institutions, they 
have evolved and developed and expanded. I think now is their 
time to come back and embrace what they were established to 
do--help the military. Help us even over at the War College get 
a picture, get an image of what does all this mean for 
strategy, this contraction. So I would advocate, again, a 
strong interest on the part of the Chairman of the Joint 
Chiefs, but I would advocate ICAF going back to its roots.
    Dr. Snyder. I wanted to ask--when somebody asked me what is 
elementary school like today, I think back to the 1950s when I 
was in elementary school. I can still remember what the halls 
smelled like from the cafeteria, and I have visited schools 
since then.
    But I can't tell, from what you all are telling me, what 
the conclusions that you have reached, what it is based on. I 
think it is more than just anecdotally, ``Well, I was at that 
school for a while, or at this school for a while. I talked to 
these students.'' I don't see any firm study that has been 
done.
    So my question is, I presented the scenario, if we have 
three or four or five people that just sit down and talk to 
General Marshall, that he thought that was pretty good. That 
may be one criteria. That is not acceptable. We could probably 
save a lot of money by finding the top 100 people, and we would 
find our 3 or 4 probably in that top 100.
    What is the criteria by which we judge how we are doing? Is 
it going to be--one of you mentioned--yes, you, Dr. Carafano, 
about the number of people involved in the surge and where they 
had come from. And we have heard discussions about Tom Ricks 
talks about, well, the people that helped General Petraeus 
write the counterterrorism manual were actually not from these 
colleges. But that seems like the kind of anecdotal evidence.
    What are we going to base our conclusion on about this 
school is performing well, whether it does case studies or not, 
whether it offers master's degrees or not? How do we judge the 
quality of leadership that is coming out of these schools, 
which we think makes us safer? Maybe we will start with Dr. 
Kohn and go backwards.
    Dr. Kohn. Well, Mr. Chairman, I think you can set standards 
on the basis of American higher education, and you can do the 
accreditation from the Pentagon with oversight from the 
Congress. As to the quality of the faculty, as to the relevance 
of the curriculum to whatever level of education is 
appropriate, pre-commissioning, intermediate, senior service 
school, or general officer and admiral level, and you can 
investigate what you think is needed, and you can discuss this 
at great length I think with senior officers and retired 
officers.
    Anecdotal evidence I think is useful--I say this as a 
historian--when it is ubiquitous and consistent over time. 
Something is usually there. And in my case, it is talking to 
faculty members at these schools for 30-plus years, sending 
graduate students to teach there, accepting graduate students 
from the academies, lecturing in the last 15 years probably 
five or six dozen times at most war college.
    Dr. Snyder. Well, I will interrupt you there. Didn't you 
say over the last 30 years, but there was a dramatic change, we 
think, 20 years ago, and then we have had changes, we think, 
over the last 8 years since September 11th.
    I mean, so when you mention experience, I want to know what 
we base our judgment on that the officers that are going to 
Iraq and Afghanistan today at the highest levels of leadership, 
that they--how do we judge whether they--it is not on whether 
they have a good master's degree program. I mean, where did 
General Grant rank in his leadership class?
    Dr. Kohn. Well, in my judgment, the strategic failures of 
the United States in both Iraq and in Afghanistan seem to me to 
be indicative, and in the first Gulf War. I don't want to name 
names here. I don't think that would be useful.
    But the United States has not succeeded strategically in 
much of its military operations and its wars at the military 
level in the last 30 years. When I think of General Petraeus, 
one of my graduate students was picked off by him.
    He indeed cherry-picked the very best minds that he knew, 
since he had been the commander at Leavenworth, and he is 
attuned to these officers with Ph.Ds. He likes to run with 
them. He knows, and he knew how to find these people, but he 
had to draw them from all over the place.
    And so I think that it may be unfair and it may be a very 
gross measure, but if you look at American military success 
from the strategic level since the beginning of the Vietnam 
War, there are questions to be raised.
    Dr. Snyder. That is right. Well, I will let the rest of you 
comment here.
    Dr. Carafano. I am going to make three points.
    The first point I would make is I think what Dick and Sandy 
both said is exactly right. I mean, we can tell you what a good 
education is because we have got lots of experience at what 
good professional graduate level education is in this country. 
The war colleges don't meet that standard. And if you want to 
say--that is the standard you would use, is you would look at 
the breadth of what other professionals are capable of doing in 
terms of graduate level education.
    And again, my argument for why you would push this earlier 
is you can find lots of people between the ages of 25 and 35 
who are capable of the most sophisticated level of intellectual 
activity possible, and they go through graduate programs and do 
that all the time. So the measure of what is a good graduate 
level education, regardless of the content, I think Dick and 
Sandy are right. You use the state of the art that we have now.
    In terms of how do I measure the competency of the 
graduate, well; this is a problem that we simply can't solve 
now because we have very poor predictors of cognitive 
development and future capabilities. It just doesn't work.
    Part of the reason why I think the problem that we got into 
at the end of the Gulf War and the post-Gulf period is--it is 
bigger than PME, is if you actually look at the military 
professional promotion system, basically what you had is, for 
30 years, ``like promoted like,'' right? I promoted the people 
that looked like me, sounded like me, acted like me.
    And that was fine, because you were in a very predictable 
operational environment. You know, it was Fulda Gap today. It 
is Fulda Gap tomorrow.
    But the problem is the gene pool, if you will. The 
leadership pool was very, very good in a very, very narrow 
margin, and so we get to the post-Cold War, and we are all over 
the place, in different requirements, different strategic 
environments, and the pool is just not wide enough. There are a 
few outliers, like Dave Petraeus. But generally, we didn't have 
an officer corps like we did at the beginning of World War II 
that had a vast breadth and depth of experience and knowledge 
and skill sets to apply to these different strategic settings.
    And I think it is a fool's errand to say, ``Tell me how I 
am going to evaluate the quality of my graduates,'' because 
right now, history is the only thing that is going to tell you 
whether you have good graduates or not, when it presents 
itself, and then you would have to deal with those challenges.
    But this would lead to a third point I would make----
    Dr. Snyder. I have got to interrupt you when you say it is 
a fool's errand, but you just gave an example, or you did, 
where General Petraeus found those people, found people that he 
thought were top-notch, so that is not a fool's errand. You 
just said he was successful at doing that.
    Dr. Carafano. He did that, but the system didn't do that 
for him, right? He had to go out and find them.
    Dr. Snyder. Well, but my question wasn't how is the system 
doing. I was asking how do we judge it, and you just gave me an 
example. You got a top-notch guy who looked for top-notch 
people, but you are saying we can't set up a system to do that, 
apparently. It is a fool's errand.
    Dr. Carafano. But 10 years ago, Dave Petraeus may not have 
come to your mind as the obvious four-star that was going to 
pull us out in Iraq. I mean, people would say he is a great 
officer. He is really bright, but he doesn't kind of look like 
the rest of us.
    I mean, this is just not in the professional military 
field. I mean, you can look at the sport field, and you have 
got all these athletes. They have all similar attributes and 
everything. Why is one--other than steroids--why is one an 
incredible deliverer and the other guy not?
    And there are cognitive things going on in the brain. Why 
do you have a 60 percent drop-out rate at SEAL school when all 
the guys and women--or I guess it is just guys--all the guys go 
in, and they can all run 2 miles in 30 seconds flat. Well, 
there is something going on in the brain that we just don't 
quite understand, and so we have to kind of go back to the old 
tried-and-true model is we will know great leaders when we see 
them, right, because they will perform and they will achieve 
great results.
    And that is why my argument is put as many bets on the 
table as you can. Have as many officers you can who have skills 
and knowledge and various attributes, and you will have a 
deeper pool to draw from when the crisis arrives.
    But I did want to get to this point, which is not in my 
testimony and which I do think is important, is 99 percent of 
what we do is--what we do here is we focus on when you get 
educated, what is in the curriculum. What we don't talk about 
is the incredible developments that are going on in 
neuroscience and social sciences in terms of understanding 
cognitive ability and evaluating human performance and the 
potential for human performance. And we are not quite at yet 
where we can say, after somebody takes the test, ``Well, that 
is the next Dave Petraeus,'' but we are making enormous 
advances.
    Well, if you actually look at the traditional education 
models in this country, when we learn something in the sciences 
of how brains work and how to educate people, by the time that 
transport over into the actual process of educating, it can 
take years, and decades, in some cases, and it winds up going 
through lots of political filters before--it doesn't get 
applied right.
    So we should think seriously, and this committee should 
think seriously about how do we track the cutting-edge 
developments in neuroscience and social sciences in 
understanding cognitive ability and our ability to learn, and 
the ability to judge human performance, and how do we make sure 
we capture those lessons and get them into the system as soon 
as possible, in the most efficacious manner as possible, rather 
than waiting for them to kind of fall out over 20 or 30 years 
later.
    Dr. Snyder. I am going to make a comment and then go to 
you, Dr. Cochran.
    About 10 years ago or so, I was talking with a school 
superintendent. I am sure he is retired by now. He struck me as 
being a very wise man. He said that after, like--he had been 
doing it for 40 years. He said the hardest job for him that he 
still wasn't any good at was taking those new college graduates 
and figuring out which one he was going to hire that would turn 
out to be the best teacher. He said he just still struggled 
with that and was not right as often as he would have liked.
    Dr. Cochran.
    Dr. Cochran. Sir, the problem about going further in the 
line, you get all these times to kind of think and structure 
your argument, then somebody says something and you forget what 
you were going to say.
    I had two points. I think, one, I speak this as a 
historian. And I think this is a subjective measure. You just 
have to trust your instincts, or if it is gray beards or if it 
is somebody, get together some people who are just really 
intelligent, really grasp, you can measure how well we are 
doing, how well the system in it. As you were saying with the 
school superintendent, it defies an objective judgment. And I 
am comfortable with that, but I am a historian.
    The second point, I think the standard I would look for is 
what I would call mental agility in your profession, and this 
is what I think the PME system does a wonderful job at doing, 
bringing people in. And think of what other profession brings 
people in at after 4 or 5 years and gives them a chance to 
think about what they have done, 10 years, then 15 years and 20 
years. And the unfortunate thing is then you max out at 25 
years.
    This is a marvelous system when you have a chance to 
examine your profession, whether it is at the tactical level, 
where you put your weapons, or at the higher level, whether you 
view the diplomatic or the economic quiver or thing that you 
could use to solve that problem. And what comes out of that 
experience is the ability to change your mind, to say, ``Wow, I 
have been thinking about this, and I have got this wrong,'' and 
in the environment also with your contemporaries to share that 
in a non-threat experience.
    And that is an agility of mind and a willingness to 
rethink. That is what I would look for in a subjective manner, 
does the system produce people that have that.
    Dr. Snyder. Dr. Smith.
    Dr. Breslin-Smith. I used to think about this question, and 
I would say, ``Well, okay, what are we trying to do, the War 
College?'' And my conclusion the most simple way is I want to 
have wise decision-makers. I want to impart wisdom.
    But I kept going back to your question about how do you 
measure this. How do I know? And toward the end of my 
testimony--I don't know if you have got my written testimony, 
but I lay out a chart, like the second to last page, or second 
or maybe the third page before the end of my testimony.
    Dr. Snyder. It is your chart about how to analyze a 
situation? Yes.
    Dr. Breslin-Smith. Yes. What we do at the War College is, 
twice a year, we have in-depth oral exams. And what we do is we 
give the students a hypothetical scenario, crisis. And what we 
are looking for, not that they know the answers to those 
questions, but that they can raise those questions. What were 
the kind of questions they would need to know as a commander to 
have a strategic grasp of the problem they are confronting.
    We want to know, do they think, in some disciplined, 
structured way, about everything they would need to know and to 
resist the impulse to act first, ask later.
    As I look at it, I think we can actually tell, in the 
students' response to this type of hypothetical question, are 
they prepared or not. Now, in all honesty, and I raise this 
issue in my testimony, I was taken aback when I read Paul 
Yingling's article about the failure of generalship.
    And even at a more deep level as a civilian, having the 
opportunity to sit in military campaign planning classes at the 
War College and really come to respect the discipline in 
planning that Army--let's say the Army or the Marine Corps 
learned in terms of what does military campaign planning mean, 
it is a disciplined structure--courses of actions, branches, 
and sequels. It prepares you for both challenging your 
assumptions and acting on new realities.
    When I hear students who came back in that period 2005, 
2006, and even the run-up to the war, I didn't see that basic 
level of campaign planning, military planning taking place. And 
as I said in my testimony, as far as I know, I certainly know 
that nobody resigned over this issue, but I am not aware of a 
great movement of military officers saying this is not 
adequate.
    That has led me to conclude that, while we offer a 
wonderful elective that really takes a student and makes them 
struggle with this issue of what is a professional 
responsibility of a military officer. We read ``Soldier and 
State'' by Huntington, and we read that book almost page by 
page together.
    And it puts the students--and it put me--I took the class--
it put me in a vice that I couldn't get out of. I couldn't have 
an easy answer of what I would do. And it makes you struggle 
with that question of how do you resist political pressure to 
act, and how do you learn the proper response. Dick Kohn has 
gone into this much more than I have in terms of aspects of 
proper response.
    But I have to say those two issues, discipline of thought 
and analysis in terms of the questions we ask in orals, and 
then confronting head-on your capability of performing your 
responsibilities professionally as an officer--and I would add 
this is true for State, as well--and giving advice when it is 
asked for.
    Dr. Snyder. Mr. Wittman, we have gotten kind of 
lackadaisical on our clock here, but we are dealing with 
college professors, so we let them go. No, it just seems like 
the conversation needs to go on.
    So, Mr. Wittman for as much time as you need.
    Mr. Wittman. Thank you, Mr. Chairman.
    You know, it seems like as we look at these existing 
military education initiatives, we see in some instances where 
the service branch chiefs place a lot of attention and 
resources there, like the Marine Corps University, and those 
places really prosper. But then, it seems like you see others 
where the senior military officer maybe doesn't quite have that 
in his sights, or it is not there at that level of emphasis.
    And it seems that those kind of are out there adrift a 
little bit, and it seems like to me, for our senior War 
Colleges, if they are not seen as centers for intellectual 
thought by the senior military officer within that service 
branch, it seems like to me that that is an awful, awful waste.
    Is there something that Congress can do, you think, to 
elevate that whole effort to make sure that it is keenly in the 
sights and at the highest level of priority for our service 
branch chiefs? And I will go down the panel and ask your 
thoughts on that.
    Dr. Breslin-Smith. Well, again, as I mentioned before, it 
is particularly a problem for us because we are joint, and we 
are orphaned, often. Our fate depends on the interest of the 
chairman solely. We don't have a service responding to us.
    But in more specific to you, there is nothing more powerful 
to a chief or the chairman than to have a Congressman ask him 
that question. Asking about their interest in education and 
their perception of the role of education is a powerful signal 
to them to be attentive.
    Dr. Cochran. Sir, I served for two years as the Horner 
Chair at Marine Corps University, and my boss at that time was 
a one-star by the name of Jim Conway, who several years later 
we now know as the commandant. And actually, what I keep in the 
back of my mind, I think if there is a service that does seem 
to value education more in the production, it is the Marine 
Corps.
    And I asked myself why, and I think I learned that while I 
was there. It is just a small service. Everybody knows 
everybody. And they have that ability to turn quickly on a 
dime. And I have often held out the Marine Corps University as 
a model for what other services could do.
    I think, along with my colleague here, what could Congress 
do is, as a service chief that comes through, is ask him or her 
where did you go to senior service school, or what did you do. 
And there is a caveat here, too, I would offer, and there I 
think I will be in the minority.
    I think fellowships are fine. Sending somebody off for a 
year at Georgetown or Harvard or something like that, but they 
miss that interchange with their fellow students, particularly 
at a place like the National War College, where you have one 
quarter, one quarter, one quarter--and one quarter are 
civilians.
    So I am not an advocate of sending somebody off for a 
fellowship. I think they ought to go to a War College. And ask 
that question.
    Dr. Carafano. This is easy. One, you have to legislate that 
the service school belongs to the chief or the commandant or 
the chairman, period. So the Army delegating the Army War 
College Training and Doctrine Command (TRADOC), that is a 
travesty. So I would legislate that out. It is your college. 
You have to keep it.
    The other point Sandy already made. It is ridiculous to 
have commandants rotating through the colleges and then 
thinking that they are going to go on to some--this is just 
some stop on their way to their next career. I mean, if they 
don't serve between 5 and 10 years, I mean, it is ridiculous.
    So I would mandate that the term of service be somewhere 
between 5 and 10 years. I think it needs to be better named, 
``gravestone'' promotion, is the right answer. And I would 
legislate that, by law, the Chief of Naval Operations (CNO) or 
the Commandant or the Chairman has to run their war college or 
their college, period.
    Dr. Kohn. Mr. Wittman, I would agree with that, but I would 
also look to the model of the great research universities of 
this country. And I would mix teaching and research. The 
faculties have to do both teaching and research, and these 
faculties need to be consolidated. Why we have a separate 
faculty at the National War College and ICAF is beyond my 
comprehension other than by tradition. The same goes for Air 
University.
    And I would put the think tanks of the services at those 
colleges, like the Army has Strategic Studies Institute (SSI) 
at Carlisle, like the joint staff has Institute for National 
Strategic Studies (INSS) at NDU, but I would then also 
encourage--and perhaps you can do this with appropriations. You 
are not funding think tanks at a distance elsewhere in the 
armed services--encourage the service staffs, the COCOMs, the 
combatant commanders and the joint staff to use these 
institutions as centers for research and thinking. And by 
having the faculty involved in research, insisting that the 
faculty does research, because the best faculty in this country 
is doing research, even at some liberal arts colleges.
    And I think if you create that kind of model, then there 
would be ownership and there would be buy-in. That would be my 
recommendation.
    Dr. Snyder. Dr. Carafano, I understand you have a flight 
date. We will miss you. Thank you for being here. We don't want 
you to miss your flight. Thank you for being here.
    Dr. Carafano. Thank you, sir. I appreciate that.
    Dr. Snyder. And I will tell the other folks, too, but you 
should feel free to submit any written materials, Dr. Carafano, 
you want to.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I want to just turn to the inter-agency piece for a second. 
And I think Dr. Cochran, or maybe Dr. Carafano, talking about 
having a broader net of trying to bring in more individuals, be 
they civilian, be they people in the Reserve, what have you, 
who could make a greater contribution if encouraged at 
different levels to participate in a different way.
    I know that we have--when we started talking about inter-
agency a few years ago, and it was clear that State Department 
didn't have a deep bench, they weren't able to bring people to 
seminars, it was really only the military that could 
participate in their activities, same with USAID and others.
    And what would you like to share with us about--is there 
something? You talked about a National War College. I guess I 
would call it a National Security University, something like 
that, that would be focused not just on people who need command 
and control skills in the services, but also in homeland 
security, in conflict resolution, whatever that is that they 
are thrust into a situation, as our military has been in Iraq 
and Afghanistan, without the diplomatic skills, without the 
ability to do some of that work, and maybe even whether it is 
Agriculture (Ag) or finance or whatever.
    Is that a need, to try and do that? And it is not 
replacing, certainly, the military academies, but we don't 
really have that. And it has always been of interest to me that 
we probably sort of isolate those people, as you have 
mentioned, who choose the military as opposed to other walks of 
life that could also contribute that, but they are somehow--
they are not anti-military. It is just not where they would go, 
and so they would need this broader net to be caught in to be 
part of the debate, the discussions.
    How do we do that? I mean, is that something we should be 
doing? And are we doing it already and we just don't quite see 
where it is?
    Dr. Breslin-Smith. Well, it is a great question, and there 
are a couple of things just to note about it.
    Again, as I said before, this was the original idea in 
1946. State should have had its own college, and they couldn't 
get the money for it. And that responds to what you are saying. 
They couldn't get the money then, and they can't get the money 
now.
    I would throw it back to you, all of you, in that this 
issue of funding civilian activities in international security 
is a challenge for the Congress, because it involves voting for 
appropriations for foreign aid in the State Department. And 
that is the first issue.
    The other issue is the culture at State. The Foreign 
Service generally has an approach to education that they are 
highly qualified. They take the Foreign Service test. And once 
they pass, that is it. They don't need to get an advanced 
degree. They don't need to have any further education. They 
come in highly educated.
    I have to say, when students come to the War College, they 
do say, ``Hey, we should actually--this is a good experience.'' 
And so part of the proposal I am suggesting for this 
subcommittee to consider, the Foreign Service Institute is an 
institution. It primarily is focused on language training and 
small, short courses. It is a large, physical place. They, I 
think, could transform themselves into an intermediate school. 
In other words, at the 10-year level, you could have that 
beginning engagement with the inter-agency there at the Foreign 
Service Institute.
    And then, my suggestion is is that you have a College of 
Diplomacy and Development. There is space available on our 
campus for that kind of activity. And it wouldn't just be an 
educational function in and of itself, but it would provide the 
foundation of knowledge that we really don't have in the State 
Department or USAID to remember things.
    Mrs. Davis. Yes. Maybe going back to not necessarily 10 or 
15 years out, I mean, should there be civilian academies that--
--
    Dr. Breslin-Smith. For diplomats, you mean at the 
undergraduate level?
    Mrs. Davis. Not necessarily for diplomats. I mean, one of 
the things that is so compelling in terms of young people that 
choose to go into the military academies is that they are 
nominated by a member of Congress. I mean, there is a different 
level. Should there be something like that for----
    Dr. Breslin-Smith. It is a good question.
    Mrs. Davis. So--as well who----
    Dr. Breslin-Smith. What you are reflecting is the military 
always has this notion they would represent society, and you 
could be from a farm or from a city and get an appointment to 
the academy and come. The tradition of the State Department was 
it was the eastern establishment elite initially, all Harvard 
graduates, and they were a very small group of people.
    Over time, obviously there has been an expansion in the 
Foreign Service. I think you raise a good question. 
Traditionally, State folks go to college, do well, take the 
Foreign Service exam and then go in, and that is it. I think it 
is a legitimate question to say other countries have academies 
in a broader national security area, in the area of diplomacy.
    I am involved in some reform efforts for State right now in 
trying to work with Foreign Service officers, either retired or 
current, to say what can we do to revitalize that profession. 
It is a good question.
    Dr. Cochran. Three quick comments. We are dealing with 
trying to change a culture, as I am sure that--I mean, the 
military has had this culture of education is considered part 
of your career, and then they build in the float so that you 
can peel people off for six months or a year. That is going to 
take a sea change, a culture change for the other agencies to 
accept that. It will take time.
    Being older, I get impatient. Don't tell me why you can't 
do something. Tell me how you are going to do it. So I have 
heard the reasons why agencies cannot peel people off for six 
months.
    Or if you are really good, or if you are tasked to send 
somebody, are you going to send your really key guy or key gal, 
or are you going to send some kind of person that you can live 
without? And you know what normally happens. To me, that is 
unacceptable.
    I find when I deal with the inter-agency concept, the issue 
there is we don't have a Chief of Staff of the Army or the Air 
Force. We don't have a Chief of Staff of the inter-agency that 
we can go to and say, ``You have got to make this work.'' And I 
think you need to address that.
    And again, I think persistence on the part of Congress is 
so key here, because it is going to take--this is a sea change. 
This is a cultural change that has simply got to happen.
    The last point I would make is I wouldn't waste my time at 
the entry ROTC or that kind of young person level. I think the 
important thing is at the mid-level and at the senior-level, 
that there is a mix of people from the other agencies, and that 
is where I would concentrate.
    We already have a pretty good system at the senior level 
war colleges, particularly the National Defense University, 
where one-quarter of their student body are real civilians. It 
is lesser when you get to the service school, but that has 
already been established. You are trying very hard at the mid-
level to do it, but boy, it is nickel and dime.
    But I would concentrate on that area. And it is so 
essential, so essential. You put your finger right on it, in my 
mind.
    Dr. Kohn. I would agree with Sandy, Mrs. Davis. I think 
that to have academies would be, again, for the government to 
duplicate institutions that we may have in society that are of 
very high quality.
    But that said, we do have a terrible recruiting problem at 
the civil service of getting the best youngsters. I have so 
many students who want to do public service, who want to have 
careers in government, that don't find a way to get in, and it 
is really very difficult.
    I would distinguish the inter-agency process as a body of 
knowledge to be taught how it works, what it does, with the 
education of people for inter-agency cooperation and working 
together. I think that the military leads the government in 
professional education past the undergraduate level, and 
probably leads society among professions.
    You have this infrastructure, this large infrastructure in 
the military. I would make use of it, and make use of it by 
adding large numbers of civilians, again the best from other 
agencies, and that probably can be done on a funding basis and 
an encouragement basis. It is a cabinet-level issue for any 
administration. It requires a push from the top and funding 
from this side of the Potomac.
    The problem is stovepipes. To add academies or even post-
graduate institutions to the civilian agencies, it seems to me, 
would just perpetuate the stovepiping.
    But that said, I think it has to be a cultural change 
within the military, also, because up until war college, most 
military officers are focused on working with other military 
officers first in their service, then in the other services, 
with allied military services, and there is very little 
tradition of cooperative activity in the history of American 
foreign operations in other countries between military and 
civilian.
    I once asked a very senior British officer if--retired--if 
in his career as a young officer, he would ever take orders 
from a foreign service officer or a civilian in his government. 
He said, ``Well of course. We do that all the time at the mid-
levels.''
    And I thought to myself, ``Would an American officer, a 
major, a lieutenant colonel, learn to take orders from a 
civilian and feel comfortable with that? Would his or her 
commanders, all the way up to the four-star level, be 
comfortable with that?'' The answer is really, no. And so I 
think there is a cultural change that has to take place on both 
sides.
    Dr. Breslin-Smith. Except I just have to say that is, 
though, the experiment in this is what is happening in the PRTs 
now. At the captain, major, and lieutenant colonel level, they 
are coming to us with that experience and struggling with this 
question.
    Dr. Kohn. I would also----
    Mrs. Davis. And they are great ones to capture a lot of 
that experience.
    Dr. Breslin-Smith. You bet.
    Mrs. Davis. I mean, I think we can build some things around 
that.
    Dr. Kohn. I think that General Caldwell at Leavenworth, 
where I visited two months ago, is actually addressing this 
problem by inviting civilian agencies. I think he is even 
offering to send Army officers in exchange to get much more 
civilian attendance at the Command and General Staff College 
and the other courses at the Combined Arms Center.
    And so there may be the kernel of an idea and a process 
there. It seemed very promising.
    Dr. Breslin-Smith. And I would say there are lessons-
learned materials there on the PRT experience is really worth 
reading. It is very revealing.
    Mrs. Davis. Thank you.
    Dr. Snyder. I have one final question, and we will see if 
Mr. Wittman or Mrs. Davis have anything more.
    If you could institute three or four or five changes, given 
the institutions we have today the way they are, to increase 
the quality of the faculty, what would those things be?
    Dr. Breslin-Smith. For the military faculty, again, what we 
have all said I think is have the services take education more 
seriously so their placement is effective. The same thing is 
true for agencies. I would actually work with State, AID, 
Treasury, the other people we get faculty from earlier in their 
careers saying--highlight when you are older, would you want to 
come to War College and teach, think about that now. So I would 
recruit younger.
    And with civilian faculty, we need to have more 
opportunities to do research, to have some time off. I like the 
idea of us going back and forth between the executive branch 
and coming back to the War College, so we have practitioners 
who work at OSD or work at State for a while and come back. So 
more flexibility with our civilian faculty.
    We have increased our civilian faculty a lot since the era 
of the Skelton Commission, so I don't really have any 
complaints about it, but I think we need more flexibility.
    Dr. Snyder. Dr. Cochran.
    Dr. Cochran. Two things, sir.
    First of all, I would urge you all to re-examine the notion 
of tenure and under----
    Dr. Snyder [continuing]. On your statement----
    Dr. Cochran [continuing]. Mr. Skelton. And I was a Title X 
import. I came in under his initial things, and I ran the 
tenure gap, and I got there and it was marvelous. And it is, as 
I understand, at all PME institutions, tenure is no longer 
valid.
    And I honestly feel that that is a worthy goal. I would 
also pursue within that the notion of tenure for military 
faculty themselves while they are still on active duty, similar 
to what they do at the service academy. I would have to think 
this through a little bit more, but that sparks me. I mean, you 
need to get good people that are good at what they do and stay 
there, and not with the threat of some kind, somebody coming in 
and changing the curriculum.
    The second thing, I would seriously address this notion of 
somehow coming up with a differentiation between uniform 
faculty and civilian faculty. And I am not so sure what the 
answer is, but it does work at the inner--within a department, 
because each specialty has something they are really good at, 
and they don't cross over. If you are an Air Force professor, 
you are pretty good at flying an airplane. If you are a 
civilian professor, you are pretty good at researching 
something.
    What do I want to do? Do I want to learn to fly that 
airplane to get ahead and--, so I think someone needs to really 
think that one through, and I think that would improve the 
quality of the faculty.
    And the last thing here, I differ with my colleague, Dick 
Kohn. Teaching at a PME institution is all about teaching. It 
really is. And if you want to go research and write, you are in 
the wrong place. You really are. You have got to go there as a 
teacher. And what I think of in my own experience with higher 
education, there are certain colleges, as opposed to 
universities, where the teaching experience is the one that is 
valued. That is most important. And I think that needs to be 
emphasized.
    Dr. Snyder. Dr. Kohn.
    Dr. Kohn. Well, I won't take the bait from my friend Sandy, 
but the history of American higher education contradicts what 
he says.
    I would make five points, Mr. Chairman. First, I would have 
the committee and the Congress mandate certain conditions, 
backgrounds, and tenures for the leadership of these 
institutions so that they have the experience of being on the 
faculty, understanding faculty, and will take on as their 
responsibility the making certain of having the highest quality 
faculty in their institutions.
    Now, the second thing I would do is I would look at the 
personnel systems of the armed services to make sure that they 
are encouraging their best officers to get higher education in 
the civilian world and to become faculty members. One of the 
great points that the Skelton Report made was that many very 
senior and very successful leaders in World War II had served 
on the faculties of War Colleges and the staff colleges.
    The third thing, and I don't know how this could be done 
from the Congress, but the recruiting of civilian faculty needs 
some kind of oversight, because it seems to me that the 
civilian faculty often--if you have a Ph.D., you have a Ph.D. 
And Ph.D.s are differing in quality and substance across 
American higher education just as law degrees are, medical 
degrees and others are.
    And so, I think that the service schools are isolated from 
American academe. They don't have the personal contacts in the 
best training institutions. Because I had experience in the 
Department of Defense and elsewhere and was known to the Air 
Force, they would send very good students, and to the Army, 
very good students to me for graduate training.
    But you can get great graduate training at many other 
places, and I think they are disconnected there.
    A fourth thing I would do is I would prohibit--I don't know 
how to do this, either--prohibit the number of retired officers 
who are hired onto these faculties, sometimes with quite good 
credentials, but oftentimes because of the compatibility 
factor. He or she understands us, knows the culture, won't make 
waves, won't rock the boat, et cetera, et cetera. There is a 
bit of sinecurism going on here, at some schools more than at 
others, and sometimes almost none at some schools.
    And then, last of all, I heartily endorse the issue of 
tenure. I addressed that in my written testimony to say that 
tenure is what creates outstanding faculties because it forces 
an up-or-out decision on the people after a period of probation 
in which they have to demonstrate not only their accomplishment 
and their worth, but their promise for the future as faculty 
members.
    Dr. Snyder. Mr. Wittman, anything further.
    Mr. Wittman. All done.
    Dr. Snyder. Mrs. Davis.
    Mrs. Davis. Can I just ask, are very many denied tenure?
    Dr. Cochran. When I was at the Air War College, yes, there 
were. I would say at that time, and this was early 1990s, we 
actually had--it was 50 percent were denied tenure. And some 
people left because of that.
    Dr. Breslin-Smith. And I don't agree with that, with the 
tenure question. I support it at a normal university. I like 
the idea, at National at least, of having this vitality of 
bringing professionals in for a while, having a retired foreign 
service officer or somebody from cabinet level who is with us 
for a while, because we are so focused on Washington decision-
making, that is the vitality of people coming together.
    Dr. Kohn. Then your tenure track only goes for your 
academic side, not for your special----
    Dr. Breslin-Smith. Yes. We have it almost essentially--we 
have three-year renewable contracts. We have people who have 
been on our faculty for a long time. It kind of works out.
    Mrs. Davis. Obviously started something here. I didn't mean 
to do that.
    Dr. Cochran. Well, in my observation of some of these 
schools, the lack of tenure in process is no deterrent to 
keeping people on for lifetime appointments, because, ``Oh, 
well, we will just continue so-and-so on for another,'' or, ``I 
don't want to go through the problem of letting them go.''
    You can have a dual-track faculty, professors of the 
practice, as we have in some professional schools, and then 
tenured academic people. So I think that can work.
    Dr. Snyder. Thank you all for being here. I think our 
question today, we hit mostly broad themes of this. All of your 
written statements, I think had a wealth of some very specific 
things for us to look at, and we will. I think this is a good 
kick-off for us, and I appreciate you all being here.
    Let me repeat very formally, if you have anything written, 
modifications, addendums you want to submit, we will make it 
part of our record and deliberations here and share it with the 
other members on the subcommittee. And we are certainly going 
to feel free to grab you again should we have other questions.
    Thank you all for being here. We are adjourned.
    [Whereupon, at 3:35 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                              May 20, 2009

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 20, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 51661.001
    
    [GRAPHIC] [TIFF OMITTED] 51661.002
    
    [GRAPHIC] [TIFF OMITTED] 51661.003
    
    [GRAPHIC] [TIFF OMITTED] 51661.004
    
    [GRAPHIC] [TIFF OMITTED] 51661.005
    
    [GRAPHIC] [TIFF OMITTED] 51661.006
    
    [GRAPHIC] [TIFF OMITTED] 51661.007
    
    [GRAPHIC] [TIFF OMITTED] 51661.008
    
    [GRAPHIC] [TIFF OMITTED] 51661.009
    
    [GRAPHIC] [TIFF OMITTED] 51661.010
    
    [GRAPHIC] [TIFF OMITTED] 51661.011
    
    [GRAPHIC] [TIFF OMITTED] 51661.012
    
    [GRAPHIC] [TIFF OMITTED] 51661.013
    
    [GRAPHIC] [TIFF OMITTED] 51661.014
    
    [GRAPHIC] [TIFF OMITTED] 51661.015
    
    [GRAPHIC] [TIFF OMITTED] 51661.016
    
    [GRAPHIC] [TIFF OMITTED] 51661.017
    
    [GRAPHIC] [TIFF OMITTED] 51661.018
    
    [GRAPHIC] [TIFF OMITTED] 51661.019
    
    [GRAPHIC] [TIFF OMITTED] 51661.020
    
    [GRAPHIC] [TIFF OMITTED] 51661.021
    
    [GRAPHIC] [TIFF OMITTED] 51661.022
    
    [GRAPHIC] [TIFF OMITTED] 51661.023
    
    [GRAPHIC] [TIFF OMITTED] 51661.024
    
    [GRAPHIC] [TIFF OMITTED] 51661.025
    
    [GRAPHIC] [TIFF OMITTED] 51661.026
    
    [GRAPHIC] [TIFF OMITTED] 51661.027
    
    [GRAPHIC] [TIFF OMITTED] 51661.028
    
    [GRAPHIC] [TIFF OMITTED] 51661.029
    
    [GRAPHIC] [TIFF OMITTED] 51661.030
    
    [GRAPHIC] [TIFF OMITTED] 51661.031
    
    [GRAPHIC] [TIFF OMITTED] 51661.032
    
    [GRAPHIC] [TIFF OMITTED] 51661.033
    
    [GRAPHIC] [TIFF OMITTED] 51661.034
    
    [GRAPHIC] [TIFF OMITTED] 51661.035
    
    [GRAPHIC] [TIFF OMITTED] 51661.036
    
    [GRAPHIC] [TIFF OMITTED] 51661.037
    
    [GRAPHIC] [TIFF OMITTED] 51661.038
    
    [GRAPHIC] [TIFF OMITTED] 51661.039
    
    [GRAPHIC] [TIFF OMITTED] 51661.040
    
    [GRAPHIC] [TIFF OMITTED] 51661.041
    
    [GRAPHIC] [TIFF OMITTED] 51661.042
    
    [GRAPHIC] [TIFF OMITTED] 51661.043
    
    [GRAPHIC] [TIFF OMITTED] 51661.044
    
    [GRAPHIC] [TIFF OMITTED] 51661.045
    
    [GRAPHIC] [TIFF OMITTED] 51661.046
    
    [GRAPHIC] [TIFF OMITTED] 51661.047
    
    [GRAPHIC] [TIFF OMITTED] 51661.048
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 20, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. 1. What should be the focus in our study? What 
questions should we ask the commandants and deans of the various 
schools? What should we ask the combatant commanders? What should we 
ask the Secretary of Defense and the Chairman? What should we ask the 
secretaries of the Services and their uniformed heads?
    Dr. Breslin-Smith. At heart, the key question for the study and 
indeed for our military leadership is simple: how important to this 
nation is professional military education? If the military is to 
overcome the perennial ``anti-intellectual'' charge against its 
officers, will the leadership, both civilian and uniformed, embrace and 
support PME? Will serious attention be paid to student selection, 
military faculty assignment and leadership recruitment? I would ask the 
Secretary, the Chairman, the Service Secretaries and the Chiefs and 
Combatant Commanders what they want in our war colleges, what they want 
from the National War College. I would ask what expect from graduates 
of the colleges--what skills, depth of understanding, regional 
preparation. Do they want our graduates to understand the distinct 
bureaucratic and service cultures?
    Dr. Snyder. 2. What should be the role of ethical discussions and 
education in PME beyond ``just war'' theory?
    Dr. Breslin-Smith. On ethics education. Over my 12 years at the War 
College, I saw frequent requirements for ethics or leadership 
education. When offered suggestions for these topics, we received vague 
and general topics that did not address the tough questions that 
officers face when forced to choose between career and professional 
military advice. If an officer has observed over time that certain 
types of individuals are promoted for ``going along'' then no amount of 
ethics training will overcome that lesson. So my first challenge for 
each Service is to evaluate the promotion criteria, does it include the 
naysayers, the questioners? Are officers who respond to ``those below 
as well as those above'' promoted?
    I did observe one type of course that provided a unique opportunity 
for officers to consider their professional responsibilities. The 
National War College has an elective on civil-military relations which 
requires a slow and most careful analysis of Huntington's The Solider 
and the State. This course exposes the students personally to the 
tension between career ambition and professional responsibility--with 
slowly increasing pressure and logical discipline. No student can shirk 
or dismiss Huntington's profound questions. I would advocate this 
approach at all the War Colleges.
    Dr. Snyder. 3. What specifically attracts top notch civilian 
academics to faculty, particularly if the programs are not accredited 
for master's degrees?
    Dr. Breslin-Smith. The type of civilian academic we wanted at the 
War College was not the typical graduate school professor. We found 
that those attracted to this school came because it is a policy 
professional school, not an academic research institution. We do best 
with a mix of practitioners, former Ambassadors, governmental 
officials, Congressional staff, as well as civilians with specific 
academic specializations. The National War College attracted ``top 
notch'' civilians--from Harvard, Yale, Princeton--even before we went 
to the master's degree. I believe the War College needs thoughtful 
``policy academics'' who are comfortable in a mixed professional 
environment, and who want to teach.
    Dr. Snyder. 4. Is the only way to achieve the Skelton Panel's 
recommended joint (and now increasingly interagency) acculturation 
through long (at least 10 months) in-residence education?

    a.  Are the faculty and student mixes dictated for the various 
institutions still appropriate? If so, was it appropriate for Congress 
to allow the Service senior schools to award JMPE II credite (NDAA 
FY2005) despite their lower ratios and lack of a requirement to send 
any graduate to joint assignments? Do you see unintended consequences 
to that?

    Dr. Breslin-Smith. I do believe that the National War College 
program, which is interagency and joint BY INTENTION, must be in 
residence. It is the very interaction of the students and the faculty, 
the ongoing contact that brings together diverse bureaucratic cultures 
that Eisenhower, Arnold, Marshall and Forestall had in mind when they 
established the College. This is not a training program that can be 
done through distributed computer based learning, although that can be 
useful in other settings. This is a policy based educational experience 
that prepares officers for the real life interagency and inter-service 
tensions they will face on graduation.
    Dr. Snyder. 5. What constitutes rigor in an educational program? 
Does this require letter grades? Does this require written exams? Does 
this require the writing of research or analytical papers, and if so, 
of what length? Does this require increased contact time and less 
``white space''?
    Dr. Breslin-Smith. On the question of Rigor. I have observed that 
``letter grade'' standard results in overall student A-/B+ grades. I 
would have you evaluate the experience at ICAF in this regard. I do 
believe that the Colleges need to work with students on their writing 
quality, but I am not convinced that writing a research paper is a 
definitive evaluation technique. To me, the most important evaluative 
measure, either in oral examination or in written examination, is the 
challenge of scenario analysis. As I mentioned in my testimony, I 
believe that National War College can demonstrate rigor and superior 
preparation of its students, through the use of strategic analysis 
along the lines of the framework series of questions that various 
professors have developed over the years. If a student can analyze the 
components of a given scenario, its strategic implications, and 
thoroughly respond to the in depth questions prompted by the discipline 
of the framework, we can assess the rigor of the student's thought and 
preparation.
    Dr. Snyder. 6. Should performance at PME matter for onward 
assignments? Does which school one attends matter for later 
assignments?

    a.  Does the requirement that the National Defense University send 
50% (plus one) graduates to joint assignments and the Service senior 
schools have no such requirement matter even though now all award JPME 
II credit (since 2005)?

    Dr. Breslin-Smith. On the issue of onward assignments and student 
performance. It would be useful to track the career paths of DG 
graduates from the Colleges, versus the career paths of students with 
strong ``sponsors'' or mentors. The dynamic of the sponsor also impacts 
the selection of senior college. Logically, the Joint Staff and the 
Services should send students to ICAF for in depth economic/
acquisition/industrial analysis, to National for strategy, and to the 
Service colleges for senior service specific education. I do not 
understand how the Service Colleges came to award JMPE II credit.
    Dr. Snyder. 7. How does one measure the quality of the people in 
the PME environment?
    Dr. Breslin-Smith. To measure the quality of the people in the PME 
environment, see my answer to #5. The purpose of the National War 
College is to educate officers in the field of strategy, in depth 
critical analysis. As our first Commandant mused, the measure of the 
College's success is our ability to make the student's ``ponder.'' As a 
professor, I encouraged students to take advantage of a year when they 
can try on other opinions, experiment with other views, dive into the 
study bureaucratic and international cultures, develop critical 
thinking skills.
    Dr. Snyder. 8. Does gender and ethnic diversity matter in the 
assignment of senior leaders and the search for qualified faculty? How 
should PME institutions increase the diversity of their leadership and 
faculty?
    Dr. Breslin-Smith. Years ago, I served on the diversity panel for 
the National Defense University. The panel recommended a number of 
steps to increase racial and gender diversity, beginning with earlier 
recruitment of military officers for advanced degrees and eventual 
assignment to NDU. We suggested that the services consider that 
advanced students at the command and staff level schools be contacted 
for possible future assignment to the War College. But more than gender 
or racial diversity, the military needs to foster more respect for 
officer advanced education and teaching.
    Dr. Snyder. 9. How should PME commanders, commandants, and 
presidents be chosen? What background(s) should the Chairman and 
uniformed heads of the Services be looking for when they nominate 
individuals for these positions? Should the focus be on operational 
leadership or academic background?
    Dr. Breslin-Smith. As obvious as this may sound, a key criterion 
for selection for PME commandants must be an officer's intellectual 
engagement with senior officer education. While it would be useful for 
an officer to have had past academic or administrative experience in 
higher education, I believe that the key factor in success is a passion 
for the mission of the National War College, and a desire to teach. 
(One would not expect an Air Force fighter squadron to be commanded by 
officer who does not fly. Why do we not aspire to have a senior service 
school led by an officer engaged in the educational mission of the 
school?)
    To assist in the Commandant Selection process, I recommend that the 
National War College revive its past advisory board, formally called 
the Board of Consultants. This Board could be active in identifying 
appropriate candidates and could do the initial screening interviews 
before recommending a slate to the Chairman.
    Dr. Snyder. 10. How should PME institutions attract top-tier 
faculty away from the Harvards and Stanfords of the academic world? 
What are the elements that would attract the highest quality of 
faculty--tenure, copyright, resources, pay, ability to keep their 
government retirements, research and administrative assistance?

    a.  Please define academic freedom in general and discuss what its 
role should be in a PME setting.

    Dr. Breslin-Smith. Again, my view is that the National War College 
is not designed to be a Research University. I believe the ``top tier'' 
faculty members are attracted to the War College because of their 
access to and impact on the future leaders of our country, the setting 
of the College in Washington and their proximity to the policy 
community. As I mentioned above, we have had outstanding civilian 
faculty over the years without tenure, copyright, and research 
assistance. That is not to say that these are not important factors to 
keep the MIX of faculty that is so important. I support the current 
system of a few ``tenured'' faculty, more research support for those 
who want to do research, a more flexible sabbatical program to allow 
faculty to enter the policy process.
    On academic freedom. Aside from DOD rules in article publication, 
which did not seem burdensome, there is a larger issue concerning the 
atmosphere of academic freedom. When a leader in an academic 
institution suggests that certain speakers should not be invited, that 
administration policy should not be questioned, that certain schools 
focus too much on history and policy criticism, great harm is done to 
military officers. In my mind, the goal of senior officer education is 
critical analysis and strategic thought . . . to be prepared to answer 
the question, ``now what do we do?'' Faculty and students need to be 
free to question, to reconsider, to challenge. It is the ultimate gift 
of a war college education.
    Dr. Snyder. 11. What should be the role of history in PME?
    Dr. Breslin-Smith. The role of history. For a nation that spends so 
little time considering the past, it is all the more important to 
expose its military leadership to both diplomatic and military history, 
as well as deeper understanding of the world's political cultures. The 
benefit of the American generally positive focus on the future obscures 
the weakness of our analysis and strategic thought when we ignore the 
practices and experience of the past. The recent past, the after action 
analysis of the period leading up to the terrorist attacks and the 
subsequent wars must be studied before the complexity of the current 
blur of international and domestic issues numbs analysis.
    Dr. Snyder. 3. What specifically attracts top notch civilian 
academics to faculty, particularly if the programs are not accredited 
for master's degree?
    Dr. Cochran. In my view, this question misses the point, 
particularly the notion that civilian academic are attracted by master 
programs. None of the service academies nor community colleges and many 
smaller academic colleges--all of which lack master degree programs--
have problems with attracting quality civilian faculty. Rather, the 
issue is the lack of mobility for faculty between civilian and military 
PME institutions. Once any civilian academic makes a commitment to a 
PME faculty situation, few if any can expect to return to the civilian 
academic world. There is an inherent mistrust amongst civilian faculty 
towards military PME institutions [one of the purposes of the 
``visiting professor'' positions at PME schools is to counter this] and 
the attitude towards academics who take the PME route are treated as if 
they sold their soul to the devil. Acknowledgement of this by PME 
officials, as well as members of Congress, would be helpful (see my 
response below for further on attraction of civilian faculty).\1\
---------------------------------------------------------------------------
    \1\ These views represent Dr. Cochran's based upon his PME 
experience and do not represent that of the US Army or Department of 
Defense.
---------------------------------------------------------------------------
    Dr. Snyder. 5. What constitutes rigor in an educational program? 
Does it require letter grades? Does this require written examinations? 
Does this require the writing of research and analytical papers, and, 
if so, what length? Does this require increased contact time and less 
``white space''?
    Dr. Cochran. As I stated in my oral testimony, rigor in any PME 
program will result in the synergy between a qualified civilian and 
military faculty teaching in their areas of expertise and a motivated 
student body that really wants to learn. From this will flow a rigorous 
curriculum. To think that ``rigor'' should drive is putting the cart 
before the horse. If the inherent curriculum is weak, a solid faculty 
with innovative leadership will fix that--responding to the demands of 
a student body.
    The type of grade given is irrelevant as very few, if any, PME 
schools ``flunk'' students, certainly when compared to civilian 
institutions.
    Written examinations are only as valuable if a qualified faculty is 
prepared to spend as much in the evaluation as the students did in the 
study and writing. More valuable are oral examinations that cut across 
academic departments--thus being truly integrated--as are conducted by 
the National War College faculty. Research papers are only as useful as 
the contribution of qualified faculty with requisite expertise who 
direct them; all too often ``papers'' at PME institutions are ``check 
the block.''
    On contact time, my experience has always been less is better, thus 
forcing hard decisions on what to and not to teach as opposed to 
filling time. The whole notion of ``white space'' is meaningless 
outside of PME; indeed it would be embarrassing to explain this to 
civilian academics?
    Dr. Snyder. 6. Should performance at PME matter for onward 
assignments? Does which school one attends matter for later 
assignments?
    Dr. Cochran. How well students perform at PME should be a requisite 
for future assignment. However, the factors such as a 100 percent pass 
rate and the lack of weight given to ``academic evaluation reports'' 
inhibits competition. Such a system would require some innovation in 
the personnel system.
    With regard to school attendance mattering for specific 
assignments, here various PME schools need to coordinate (particularly 
across services) on what is the focus of each institution--even create 
``centers of excellence'' on inter-service matters such as Army schools 
on leadership, Air Force schools on technology, NDU schools on 
strategy. Another factor is the elimination of ``waivers'' prior to 
assignment that all too often become accredited after assignment.
    Dr. Snyder. 9. How should PME commanders, commandants, and 
presidents be chosen? What background(s) should the Chairman and 
uniformed heads of the Services be looking for when they nominate 
individuals for these positions? Should the focus be upon operational 
leadership skills or academic backgrounds?
    Dr. Cochran. The military ``heads'' of the various PME institutions 
should be chosen on the basis of demonstrated leadership in the 
expertise and at the level of the applicable school. The more senior 
the school, the more essential this leadership category is. S/he should 
be assigned to that position for a minimum of three years (five for 
staff and war colleges) to plan, execute, and assess the programs, 
curriculum and changes. ``Touch and go'' or ``holding pattern'' 
assignments demean the seriousness of PME. The academic ``dean'' for 
each school should be chosen for academic  background in field of the 
institution and kept in those positions for at least twice that of the 
``head'' tenure to ensure overlap. As the ``head'' should be a military 
person, the dean should be civilian.
    Dr. Snyder. 10. How should PME institutions attract top-tier 
civilian faculty away from the Harvards and Stanfords of the academic 
world? What are the elements that would attract the highest quality of 
faculty--tenure, copyright, resources, pay, ability to keep their 
government retirements, research and administrative assistance?
    Dr. Cochran. Similar to the first question above, this question 
misses the point. Most of the ``elements'' or perks for civilian PME 
faculty exceed those of comparable positions on civilian campuses with 
the MAJOR EXCEPTION OF TENURE. Matters of pay, funds for research and 
travel, access to resources, and assistance, particularly for younger 
scholars at prestigious ``Harvards'' and ``Stanfords'' as well as 
established scholars in the academic world, simply cannot be matched by 
civilian institutions. The issue is not so much ``attraction'' rather 
than ``retention.'' Here senior leadership needs to be innovative. 
Addressing the failure of PME institutions to implement a system of 
Title X tenure as outlined 20 years ago would be a positive step in 
that direction, for both younger scholars and established academics.
    Dr. Snyder. 10.a. Please define academic freedom in general and 
discuss what its role should be in a PME setting.
    Dr. Cochran. In my view, it is not so much the definition of 
academic freedom in PME as it is abuse in the civilian world--and the 
lack of understanding by both military and civilian communities. The 
expectation (indeed the obligation) within the military culture to 
offer alternative views, particularly in the decision making process, 
is strong. A penchant to ``hold on'' to minority positions for long 
periods of time works at cross purposes with the orderly conduct of 
business is accepted within by most in academia. Helpful here is the 
notion that PME is for the military, about the military, and by the 
military. If one has a problem with that, then they should avoid 
becoming associated with PME.
    Dr. Snyder. 11. What is the role of history in PME?
    Dr. Cochran. As noted above, the focus of Professional Military 
Education is the profession of the military; at its essence, it is 
about war--preparation for, conduct of, and assessment after. Hence it 
is ``war studies''--past, present and future. In the past decades, 
civilian institutions have adopted exceptional war studies programs--an 
essential part of which is the study of history, along with that of 
political science, economic, behavioral studies, anthropology, and 
other established academic disciplines. History is a part of this but 
does not dictate or dominate. As war studies is multidisciplinary, the 
role of history in PME should be the same. While one cannot quantify 
just how much, it should be respectively complimentary.
    Dr. Snyder. 1. What should be the focus in our study? What 
questions should we ask the commandants and deans of the various 
schools? What should we ask the combatant commanders? What should we 
ask the Secretary of Defense and the Chairman? What should we ask the 
secretaries of the Services and their uniformed heads?
    Dr. Carafano. As I stated in my testimony, ``[t]he centerpiece of 
the reform discussion should be on senior-level professional military 
officer education. The reason for that is simple. The skills, 
knowledge, and attributes of strategic leaders are the most important 
product of the military's professional development program.'' The war 
colleges are the pivotal professional military development experience. 
If clear vision for what they do can be established, it is much easier 
to work in either direction to identify the other key assignment, 
education, and training milestones that support the war college 
experience. Likewise, understanding the requirements for officer 
professional military education is the backbone for then determining 
what needs to be done for enlisted personnel, warrant officers, and 
civilian employees.
    In questioning senior military and civilian leaders I think it will 
be important to force them out of the ``here and now.'' Fundamental 
changes in the professional military educations won't solve short-term 
problems. Furthermore, these changes will likely influence the 
character of the military for many decades. Thus, each should be asked 
to envision officer duties; the skills, knowledge and attributes; 
education and training requirements; and operational assignments--
thirty years in the future.
    Dr. Snyder. 2. What should be the role of ethical discussions and 
education in PME beyond ``just war'' theory?
    Dr. Carafano. As I stated in my testimony, ``[m]oral and political 
issues are part of war, not a separate sphere that military leaders can 
ignore. Officers will have to engage in the struggle of ideas against 
terrorism and other ideologies that may emerge in the 21st century. 
They will have to understand the political dimensions of war and the 
complexities of civil-military relations.'' Thus, ethical 
considerations must transcend traditional discussions of just war 
theory and include topics such as social justice, economics, and the 
environment.
    In many ways, this curriculum will reflect what is often called a 
``classical liberal'' education.
    Dr. Snyder. 3. What specifically attracts top notch civilian 
academics to faculty, particularly if the programs are not accredited 
for master's degrees?
    Dr. Carafano. Top notch research facilities and opportunities are 
always a powerful draw. Likewise, faculty is attracted by the 
opportunity to work with a talented student body. Finally, the 
opportunity to work in a truly ``multi-disciplinary'' environment with 
a minimum of distractions from administration.
    Dr. Snyder. 4. Is the only way to achieve the Skelton Panel's 
recommended joint (and now increasingly interagency) acculturation 
through long (at least 10 months) in-residence education?
    Dr. Carafano. No, but this must be the core component and a 
touchstone for the educational experience. The gold standard by which 
alternative educational models are measured. I would make the senior 
PME experience universal and not tied to assignment or promotion. My 
argument here is simple. You can never predict with clear certainty how 
officers will respond over the long-term and which will have the 
essential skills, knowledge, and attributes necessary for future 
conflicts. The more officers through the pipeline the better the odds 
you will have the right leaders when you need them. This may not be the 
most efficient process, but my guess is we are still decades away from 
solid predictors of cognitive performance and there won't be any useful 
``metrics'' to determine whether you are producing the right leaders 
other than how they perform in over the long-term.
    Dr. Snyder. 5. What constitutes rigor in an educational program? 
Does this require letter grades? Does this require written exams? Does 
this require the writing of research or analytical papers, and if so, 
of what length? Does this require increased contact time and less 
``white space''?
    Dr. Carafano. Rigor comes from developing critical thinking skills. 
Probably the most important variable here is the quality of the faculty 
rather than the specific requirements and time allocation in the 
course. In general, however, I would advocate for more depth-less 
breath. As I stated in my testimony, ``Joint Professional Military 
Education requirements have become overly prescriptive. They are also 
growing. Quality is becoming a victim quantity. The current vogue of 
emphasizing ``cultural'' studies is a case in point. Reform proposals 
call for everything from Arabic-language training to negotiating skills 
to increased engineering and scientific training. These calls ignore 
reality. Operational requirements are leaving less, not more, time for 
professional education. Likewise, the Pentagon cannot be expected to 
foresee exactly which kinds of leaders, language skills, and geographic 
or operational orientations will be needed for future missions. The 
future is too unpredictable.''
    Dr. Snyder. 6. Should performance at PME matter for onward 
assignments? Does which school one attends matter for later 
assignments?
    Dr. Carafano. See answer to question 4.
    Dr. Snyder. 7. How does one measure the quality of the staff, 
faculty, and students in the PME environment?
    Dr. Carafano. See answer to question 4. Metrics are a recipe for 
disaster for disaster. Increasing social science is finding that the 
over reliance on quantitative measures can actually drive down 
performance. Long-term performance is the only adequate measure.
    Dr. Snyder. 8. Does gender and ethnic diversity matter in the 
assignment of senior leaders and the search for qualified faculty? How 
should PME institutions increase the diversity of their leadership and 
faculty?
    Dr. Carafano. Diversity obviously matters. We live in diverse 
world. That is where men and women have to fight. That is the world 
they need to understand. There are ways to achieve an appreciation for 
diversity without imbedding it the make-up of the students and faculty. 
The quality of the faculty is the number one variable in the quality of 
the education. That should never be sacrificed. The best means to 
ensure a diverse, quality faculty and student body for senior PME is 
establish opportunities for career of service to diverse population and 
build professional development programs that qualify them to teach and 
learn at senior PME institutions.
    Dr. Snyder. 9. How should PME commanders, commandants, and 
presidents be chosen? What background(s) should the Chairman and 
uniformed heads of the Services be looking for when they nominate 
individuals for these positions? Should the focus be on operational 
leadership or academic background?
    Dr. Carafano. They should be chosen by an independent board. They 
should serve a term of ten years and have to retire afterwards and 
receive post-retirement promotions. The leaders that should be chosen 
are the ones best qualified to implement the vision for the institution 
regardless of their operational or educational background.
    Dr. Snyder. 10. How should PME institutions attract top-tier 
civilian faculty? What are the elements that would attract the highest 
quality of faculty--tenure, copyright, resources, pay, ability to keep 
their government retirements, research and administrative assistance?
    Dr. Carafano. See answer to question 3. I think existing practices 
for academic freedom in the military education institutions is 
adequate.
    Dr. Snyder. 11. What should be the role of history in PME?
    Dr. Carafano. Critical thinking is the most vital skill. History is 
a great instrument for teaching the practice of critical thinking. It 
is an essential, but not a sufficient component. Twenty-first century 
leaders must be ``multi-disciplinary'' and understand a variety of 
methods of analysis to solve modern complex problems.
    Dr. Snyder. 1. What should be the focus in our study? What 
questions should we ask the commandants and deans of the various 
schools? What should we ask the combatant commanders? What should we 
ask the Secretary of Defense and the Chairman? What should we ask the 
secretaries of the Services and their uniformed heads?
    Dr. Kohn. The focus should be on the extent to which the various 
schools accomplish their overall mission of education for the waging of 
war. Special attention should be paid to the obstacles or impediments 
PME faces, ones that could be overcome through different policies, 
procedures, and personnel. The mission at the pre-commissioning level 
is the education of potential officers and their basic preparation for 
company grade service; at the intermediate level, education in the 
waging of war and leadership/command at the operational level; and at 
the senior level, education in the formulation of strategy and 
leadership/command at the division, fleet, and major, unified, and 
specified command levels and higher.
    Commandants and deans at the various schools (and in ROTC and OCS/
OTS) should be asked what those impediments/obstacles exist to 
increasing the quality of their institutions: resources, quality/nature 
of the students, quality/nature of the faculty and particularly support 
from their leadership (civilian and military). Attempt to differentiate 
what might be changed with different policies or behaviors from the 
leadership: could chiefs, service secretaries, and OSD do anything 
differently to enhance the schools' mission success? Explore with them 
the exogenous factors that are more difficult to compensate for: ops 
tempo, personnel policies of the services (selection and follow-on 
assignment of students in particular); support from COCOMS and 
commanders at lower levels; and curricular requirements of the 
services, joint staff, and civilian accreditation authorities. (I 
suspect that jointness and interagency issues have quite likely come to 
crowd out other important subjects in ISS and SSS.) Then see if they 
think there is anything in their power that can strengthen their 
schools. The differentiation is critical.
    Academy deans and superintendents should be asked about the balance 
between military training/education and more basic civilian education: 
do they give their cadets/midshipmen enough time, and enough 
encouragement, to pursue the intellectual experience of college, and 
develop both the respect for, interest in, and commitment to lifelong 
learning? To what extent do they rely on honor codes to teach 
professional ethics, as opposed to specific, targeted issues that they 
will face as junior officers? Do the academies (and ROTC) require 
enough foreign language fluency to be of value to the military 
establishment in the future, enough civics/government/political science 
to understand the character of American government and how it differs 
from other forms of government, and enough American history to 
appreciate the development of the United States's current economy, 
society, politics, and role in the world? Ask specifically whether the 
amount of science and engineering could be reduced, as vestigial 
holdovers from a distant past, in favor of less technical information 
that might prepare them for a lifetime of military service. Last, 
academy superintendents should be asked to explain why such a large 
percentage of their graduates leave the service after their minimum 
obligation, and at the ten year mark--and whether, if the chief reasons 
lay outside academy walls, whether they might during the four years 
better prepare officers to accept the challenges and remain committed 
to the profession of arms for lifetime careers. The combatant 
commanders should be asked if the graduates of ISS are adequately 
prepared to do the campaign planning needed by the command, and the 
graduates of SSS to formulate effective military strategy needed by 
their commands. Second, ask what in their judgment they could do 
personally or institutionally to make PME stronger; would they support 
alterations in the personnel policies of the services to improve PME? 
Do they think officers are adequately prepared for staff and war 
college? Do they think the educational experience is demanding enough? 
Do they think it was as demanding as their civilian graduate education, 
and if not, why not?
    The Secretary of Defense, Chairman, service secretaries, and 
service Chiefs could be asked the same set of questions. First, on the 
selection of school presidents and commandants, should not prior 
experience as a faculty member be required for leadership of a PME 
institution? Second, inquire what these senior leaders see as the 
primary or most important mission of the various levels of PME, and 
what in their judgment might be done to improve the accomplishment of 
these missions. Third, ask for their judgment as to the comparative 
importance of PME as opposed to civilian graduate school for the 
professional development of officers, and if they believe both to be 
necessary, whether their personnel systems make sufficient space in 
assignment patterns for the most promising officers to pursue both and 
still compete for flag rank. Each should also be asked whether they 
believe assignment to a PME institution faculty is as valuable for 
officer development as operational assignments, indeed even command.
    Dr. Snyder. 2. What should be the role of ethical discussions and 
education in PME beyond ``just war'' theory?
    Dr. Kohn. Ethics should be central to education at every PME level, 
as part of the study of the broader subject of the profession of arms.
    At every level of education, the different stresses and dilemmas of 
core professional ethics need to be explored in depth. Officers need to 
be taught how to exercise their command power responsibly; what their 
obligations are to their soldiers, colleagues, and commanders; how to 
combine mission accomplishment and with personal ambition; what 
institutional pressures they will face in the course of a career; and 
many other professional dilemmas, pressures, and difficulties that 
arise in every profession at every level. There should be case studies 
and role playing, along with biographical studies. Ethics should be 
integral to the study of leadership and command, tactics, law, civil-
military relations, public affairs, joint and combined operations, 
organization, and more. Professional ethics should be compared to, and 
sometimes differentiated from, personal ethics and morality, religion, 
social norms, and the like. The assertion of norms, values, and ethics 
needs to be supplemented with an investigation of them in depth in 
various situations. PME should play a central role in defining 
professional ethics, teaching them, and nurturing an understanding from 
their application in tactics at the beginning of officers' careers all 
the way through advising the president of the United States during 
wartime.
    Dr. Snyder. 3. What specifically attracts top notch civilian 
academics to faculty, particularly if the programs are not accredited 
for master's degrees?
    Dr. Kohn. Two things attract civilian faculty: the opportunity to 
teach their specialties to outstanding students, and to pursue their 
own contributions to their fields through research, writing, 
consulting, and publishing. This means specifically the freedom to 
choose (to some degree) what they teach and how (including the types 
and amounts of assignments), and research time and support, including 
travel and hours away from the office either in libraries, archives, 
interviewing, field work, or other venues. Like other professionals in 
other fields, scholars wish to be able to practice their profession at 
the highest level of accomplishment and excellence to which they are 
capable. They are particularly sensitive to whether the conditions of 
service support, rather than hamper, the pursuit of excellence and the 
opportunity to make their work known to colleagues in their field. 
Issues of compensation, provided that is at a living wage level and 
adjusted for a twelve month as opposed to nine month appointment, are 
secondary. See also question 10.
    Dr. Snyder. 4. Is the only way to achieve the Skelton Panel's 
recommended joint (and now increasingly interagency) acculturation 
through long (at least 10 months) in-residence education?
    Dr. Kohn. No. In fact, jointness cannot be left to ISS and SSS, but 
needs to be instilled from the very beginning of careers. Indeed much 
jointness training and education aims to undo service indoctrination, 
education, and cultural practice--down to the very humor officers of 
the various services use to needle each other and the intense 
competition engendered by service academy football and competing roles, 
missions, and budgets. ROTC units should be housed, train, and 
socialize together; induction and commissioning ceremonies should be 
joint; the academies should require a semester in residence at each of 
the other two academies; all pre-commissioning education should teach 
loyalty first to country, second to the profession of arms, and third 
to the service, while at the same time orienting and teaching cadets/
midshipmen about the missions, purposes, character, culture, 
accomplishments, and mentality of the other services--and about the 
achievements of interservice cooperation historically, as well as the 
harmful effects of interservice rivalry and competition in the 20th 
century. These subjects should be expanded at more advanced levels in 
ISS. In my judgment, interagency issues should gradually displace 
jointness at ISS and SSS--if jointness still needs to be indoctrinated 
to any significant degree (as opposed to described or studied) at war 
colleges, it means earlier efforts have failed. The same education in 
other agencies' roles, functions, accomplishments, and purposes should 
be taught at every level of PME, with attendant respect for the way 
civilians and civilian institutions contribute to national security.
    Dr. Snyder. 4.a. Are the faculty and student mixes dictated for the 
various institutions still appropriate? If so, was it appropriate for 
Congress to allow the Service senior schools to award JMPE II credit 
(NDAA FY2005) despite their lower ratios and lack of a requirement to 
send any graduate to joint assignments? Do you see unintended 
consequences to that?
    Dr. Kohn. The mix of students and faculty seems reasonable and 
functional, and as long as a portion of the curricula address joint 
issues, JPME II credit seems appropriate. Dictating from Congress 
assignment patterns of this kind will constrict the assignment of 
officers at a time when the services strain to meet operational and 
infrastructure personnel requirements, so I would recommend against 
levying the NDU requirement on the service war colleges.
    In the last twenty-five years, jointness has become something of an 
obsession. It is not and never was either the root of our military 
difficulties or the solution to our military deficiencies. It may be 
displacing other, more important, subjects in PME curricula at the war 
college level, or forcing excessive time in class meetings and group 
exercises at the expense of individual student reading, research, and 
reflection. Jointness and interagency are not in my judgment the most 
important issues the HASC should address in PME.
    Dr. Snyder. 5. What constitutes rigor in an educational program. 
Does this require letter grades? Does this require written exams? Does 
this require the writing of research or analytical papers, and if so, 
of what length? Does this require increased contact time and less 
``white space''?
    Dr. Kohn. Rigor rests on challenging students to expand their 
knowledge, skills, abilities, and understanding; and to raise their 
standards, or the quality, of their research, writing, thinking, and 
discourse. Most important, faculty must insist on rigor and precision 
in analysis and interpretation in written work and oral discourse. 
While grades, exams (written or oral), briefings, group projects, and 
writing are all indispensable--and the grading of them the only way to 
hold students accountable for their performance--what is most important 
is that the faculty press rigor in every classroom meeting and every 
student exercise and requirement. Vague, sloppy, superficial, poorly 
researched or conceived work or participation of every kind needs to be 
brought to students' attention in a direct but supportive and 
encouraging way. And the higher the level, the more direct and explicit 
should be the feedback.
    Unless students--each individual alone--write analytical papers 
based on in-depth and comprehensive research, addressing the most 
complex, ambiguous issues facing the United States in national defense, 
they will not be capable of high-quality staff work nor will they be 
able to recognize it. If they lack these skills, they cannot supervise 
subordinates in the preparation of quality staff work nor later, as 
commanders, will they be able to recognize shoddy thinking, writing, 
and advice.
    This requires not only short (less than ten pages) and intermediate 
length (twelve to twenty-five pages) papers, but a thesis 
(indeterminate length) based on original research, undertaken under the 
supervision of a faculty member skilled and experienced in such 
teaching, that addresses an important subject in national defense or 
military affairs, and makes an original contribution to knowledge.
    Finally, the term ``white space'' is misleading and offensive. It 
implies emptiness, the absence of anything much less something of 
substance. Rigor requires more time for individual student work: 
reading, research, writing, preparation. The higher one ascends in 
education, the less time is spent in the classroom listening or 
reciting or otherwise interacting with faculty and peers. More time is 
spent wrestling with complexity and uncertainly on one's own, 
formulating problems or questions, pursuing research in depth and 
breadth (always time-consuming), honing one's thinking, unraveling 
inconsistency, filling in gaps in research or logic, and crafting a 
finished product.
    Dr. Snyder. 6. Should performance at PME matter for onward 
assignments? Does which school one attends matter for later 
assignments?
    Dr. Kohn. Both should matter though I believe at present they 
matter little. In other professions--law, health sciences, business, 
the clergy, education, science, engineering, architecture, etc. etc.--
where a professional gets his or her education, how they perform (which 
measures what they learned and the quality of their skills) largely 
determines their first jobs and often subsequent career trajectories. 
All professions value experience and accomplishment. Only the military 
seems to ignore academic performance in professional advancement.
    Such was not always the case. In the army at various times during 
the first three-quarters of the 20th century, attendance at the Command 
and General Staff College and one's rank in class had real effect on an 
officer's career, and to some extent affected subsequent assignments 
and advancement as indicative of an officer's professional ability.
    Dr. Snyder. 6.a. Does the requirement that the National Defense 
University send 50% (plus one) graduates to joint assignments and the 
Service senior schools have no such requirement matter even though now 
all award JPME II credit (since 2005)?
    Dr. Kohn. Not in my judgment.
    Dr. Snyder. 7. How does one measure the quality of the people in 
the PME environment?
    Dr. Kohn. People in PME should be measured first by their 
qualifications and second by their performance.
    Students, faculty, and school leadership can be measured on 
qualifications the same way civilian professional schools measure their 
people.
    Students should be measured on the basis of their prior academic 
performances and by examination of their aptitude and preparation, by 
their interest and motivation for professional schooling as 
demonstrated in an application and statement of interest and intent, 
and by the extent to which their careers and accomplishments to date 
indicate promise for success in the profession. Currently the service 
personnel boards review only the last. The first two should be weighted 
equally at least with the last. PME schools should assess the first 
two, and admission committees, in consultation with service personnel 
boards, should certify eligibility before those boards select the 
students.
    Faculty should be measured on the basis of their professional 
education, experience, and accomplishments.
    Civilian (or permanent) faculty should be assessed on their 
performance in graduate school and the graduate education they 
obtained, on the teaching ability they demonstrated or their potential 
for teaching in a military PME environment, and on their ability and 
expertise in their discipline and subject as measured by their 
writings/publications. This assessment should be undertaken by search 
committees staffed equally by civilian and military faculty; finalists 
should be invited to campus for an interview; recommendations to deans 
and commandants should explain in writing the reasons for selection.
    Military (or rotating) faculty should be assessed the same way as 
``professors of the practice'' are measured by civilian professional 
schools: on the basis of experience, knowledge, and demonstrated 
excellence in the practice of the profession in a particular subject 
area. Search committees with an equal mix of civilian and military 
faculty should review nominations from the services, interview them, 
and make recommendations to the deans and commandants explaining in 
writing the reasons for selection, beyond nomination by a service.
    Commandants/presidents should be measured on the basis of their 
education, experience, and interest in the position. At a minimum, they 
should have faculty experience in PME, for if prior command, 
familiarity with the function, and experience with the weapons system 
or branch are required for operational and support commands, the same 
should be true in PME. The truth is that faculty assignments and 
terminal degrees from civilian educational institutions almost always 
kill the chances for promotion to flag rank. However if too few flags 
have the background, the personnel systems should be growing sufficient 
flag officers to staff these institutions--if they are important 
institutions/commands.
    Students, faculty, and commandants/presidents should also be 
measured on performance. Students can be evaluated by means of regular 
assessments in the form of grades and upon graduation, rank order in 
class just as is done in the academies. This will motivate officers to 
work hard, take advantage of PME, excel, and thus improve their 
professional capacities. Faculty should be measured just as are peers 
in civilian institutions: on teaching performance (as measured by 
occasional visits to their classrooms by senior peers and chairs, not 
by student survey alone), service (committees, course development, 
leadership, etc.), consulting, and writings/publications. A committee 
of peers should exist in every department to review the performance of 
each faculty member on a regular basis. Commandants/presidents should 
be evaluated as in civilian academe: by their supervisors but with 
input from students (including most recent alumnae/i), faculty, 
administrators, commanders/stakeholders, and Boards of Visitors.
    Dr. Snyder. 8. Does gender and ethnic diversity matter in the 
assignment of senior leaders and the search for qualified faculty? How 
should PME institutions increase the diversity of their leadership and 
faculty?
    Dr. Kohn. Diversity matters just as much in PME as in the most 
prominent and desirable command and staff positions. Faculty are (or 
should be) role models for students, respected professional experts of 
accomplishment and reputation. They are very visible. An absence of 
diversity sends a most negative message.
    Diversity can be increased by active, targeted recruitment. However 
the larger problem is that faculty duty for uniformed officers at ISS 
and SSS is not career enhancing. That could be changed by the Secretary 
of Defense, the Chairman, service secretaries, or chiefs of service--
and should be immediately. Recruiting minority and female civilian 
faculty is part of the larger problem of recruiting outstanding faculty 
from academe. See question 10.
    My sense is that the academies and ROTC have been successful in 
this respect.
    Command of PME schools often functions a tombstone assignment for 
flags either with the requisite qualifications (rarely) or for whom 
other assignments don't materialize. That, too, could be altered by the 
OSD, JCS, and service leadership.
    Dr. Snyder. 9. How should PME commanders, commandants, and 
presidents be chosen? What background(s) should the Chairman and 
uniformed heads of the Services be looking for when they nominate 
individuals for these positions? Should the focus be on operational 
leadership or academic background?
    Dr. Kohn. The Chairman and chiefs of the services should be chosen 
just as other flag billets are filled, and with the active oversight, 
input, and approval of the civilian leadership in OSD and the services. 
The backgrounds sought should be outstanding academic performance in 
PME, faculty experience, diversity of operational and staff experience, 
outstanding performance in command, and personal interest in the 
position.
    Academic background and interest should be equal to or superior to 
operational leadership skills, for leadership of a mixed service and 
civilian faculty rarely equates with command of ground, air, or sea 
operational units or forces, or the various support functions in each 
of the services or in the joint/interagency/combined arenas.
    If insufficient flags exist at present, retired flags with the 
requisite background should be recruited or voluntarily recalled to 
active duty until the service personnel systems grow an appropriate 
number of flag candidates. Some years ago the army appointed a chief of 
military history by instructing the O-7 selection board to choose from 
the several outstanding colonels with PhDs in history--and thereby 
filled the position for several years with some of the strongest 
leadership the Center of Military History and army historical program 
has ever had. The dean's positions at the Military and Air Force 
Academies are similarly filled by promotion of a permanent professor 
selected for the job. The same could be done with PME commandants, 
commanders, and presidents.
    However the need to fill these positions with academically 
qualified officers must not be the occasion to derail outstanding flag 
officers with PhDs into assignments that are career-harming. There 
should be enough qualified flags to staff a variety of positions; if 
the services wish to grow leadership that is as original and adept at 
strategy, civil-military consultation, staff support, and specialized 
command positions as in operations, they must alter the balance and mix 
of their flag ranks more broadly.
    Dr. Snyder. 10. How should PME institutions attract top-tier 
faculty away from the Harvards and Stanfords of the academic world? 
What are the elements that would attract the highest quality of 
faculty--tenure, copyright, resources, pay, ability to keep their 
government retirements, research and administrative assistance?
    Dr. Kohn. PME cannot recruit tenured faculty from the top level of 
civilian academe for permanent employment because military schools 
cannot offer the freedom to teach what top scholars wish to teach, or 
the research time to pursue cutting edge original work that will change 
aspects of their field. There are too few senior scholars expert or 
interested in the specialties desired by staff and war colleges. The 
best that can be hoped is that PME institutions can attract an 
occasional top faculty member from these institutions for a year or two 
under the intergovernmental personnel act, or younger faculty attracted 
for various reasons to teaching military officers and contributing the 
national defense.
    To attract the best teacher/scholars from civilian academe, the 
academies, staff, and war colleges must offer tenure. Overwhelmingly 
the top tier people will not risk their professional livelihood under 
rotating military leadership that might not understand academic life, 
adhere to the norms and values of civilian higher education (which do 
differ in many respects from those of the military profession), or 
permit the kind of freedom of inquiry and working conditions common to 
research I universities. When in the summer of 1990 I asked Admiral 
Stansfield Turner how he recruited Philip Crowl, the distinguished 
naval historian, from the University of Nebraska, the Admiral replied 
that he made him an offer he could not refuse, and that it included 
tenure. Newport still possesses the most distinguished faculty of the 
various staff and war colleges, and still operates with tenure.
    In truth, all the PME institutions practice tenure without its 
chief benefit: a rigorous, searching review of the accomplishments, 
fitness, and promise of faculty members after a suitable probationary 
period such that only the best are retained on a permanent basis. A 
systematic study of civilian faculty at those PME schools that lack a 
formal policy of tenure would reveal that few if any faculty have been 
discharged in the last ten or even twenty years, and that the average 
length of service probably approaches or exceeds ten years.
    The argument that tenure undermines the currency of faculty and 
their familiarity with contemporary issues and expertise lacks all 
credibility. Currency resides both in the rotating military faculty and 
in the permanent civilian faculty, who keep up in their field through 
study, reflection, research, and continuous interchange with students, 
alumnae/i, and friends in uniform. The publication and professional 
activity record of the civilian faculty, so often praised in the 
statements of the commandants/presidents to the Committee, demonstrates 
the currency and excellence of long-serving faculty.
    Other conditions of service would also be required: lower teaching 
loads, nine-month appointments (or teaching for only part of the 
academic year), the right to copyright their work and enjoy royalties 
from writing and income from consulting even when done on government 
time, dedicated secretary/administrative/research support, and more. 
Faculty in research I universities exist not in hierarchical 
organizations with an effective command or administrative structure but 
in loose, entrepreneurial institutions that afford them the maximum 
freedom to teach and research at the limit of their capabilities. They 
are accountable to their disciplines, their colleagues, their students, 
and their own ambitions. They work hard for long hours but on their own 
schedules, and essentially without supervision. Staff and war colleges, 
and even the academies, cannot duplicate this culture, and for the 
foreseeable future, few of the top American academics would be 
attracted to the military for professional careers because their 
interests are not focused on national defense.
    Dr. Snyder. 10.a. Please define academic freedom in general and 
discuss what its role should be in a PME setting.
    Dr. Kohn. I have seen no better description of academic freedom 
than the 1940 statement by the American Association of University 
Professors, available at http://www.aaup.org/AAUP/pubsres/policydocs/
contents/1940statement.htm:

    Academic Freedom

    1.  Teachers are entitled to full freedom in research and in the 
publication of the results, subject to the adequate performance of 
their other academic duties; but research for pecuniary return should 
be based upon an understanding with the authorities of the institution.

    2.  Teachers are entitled to freedom in the classroom in discussing 
their subject, but they should be careful not to introduce into their 
teaching controversial matter which has no relation to their 
subject.\1\ Limitations of academic freedom because of religious or 
other aims of the institution should be clearly stated in writing at 
the time of the appointment.\2\
---------------------------------------------------------------------------
    \1\ The word ``teacher'' as used in this document is understood to 
include the investigator who is attached to an academic institution 
without teaching duties.
    \2\ For a discussion of this question, see the ``Report of the 
Special Committee on Academic Personnel Ineligible for Tenure,'' Policy 
Documents and Reports, 9th ed. (Washington, D.C., 2001), 88-91.

    3.  College and university teachers are citizens, members of a 
learned profession, and officers of an educational institution. When 
they speak or write as citizens, they should be free from institutional 
censorship or discipline, but their special position in the community 
imposes special obligations. As scholars and educational officers, they 
should remember that the public may judge their profession and their 
institution by their utterances. Hence they should at all times be 
accurate, should exercise appropriate restraint, should show respect 
for the opinions of others, and should make every effort to indicate 
that they are not speaking for the institution.\3\
---------------------------------------------------------------------------
    \3\ For a more detailed statement on this question, see ``On 
Crediting Prior Service Elsewhere as Part of the Probationary Period,'' 
Policy Documents and Reports, 10th ed. (Washington, D.C., 2006), 55-56.

    Academic freedom is indispensable to all education but particularly 
PME, where faculty and students must be encouraged to discuss (which 
implies questioning and criticizing as well as describing, analyzing, 
praising, etc.) policy, leadership (political as well as military), 
past and present decisions, and everything else connected to military 
and national security affairs. Without free inquiry, learning cannot 
occur. Any subject, methodology, or thought that is off limits 
immediately stymies the search for truth and understanding. War and 
military affairs are complex, ambiguous, uncertain, and difficult 
enough without erecting artificial boundaries on their study. We want 
our military leadership to understand them as much as possible. 
Furthermore, censorship in their education leads to censorship later in 
their internal functioning and in their interaction with the political 
leadership. The result would be disaster in war.
    Commandants and presidents of PME schools, as ranking officers 
functioning in highly hierarchal institutions operating under 
authoritarian discipline, must affirm an unwavering commitment to 
academic freedom upon taking command, and periodically throughout their 
tenure--if nothing else to dispel the intimidation inherent in rank and 
military culture.
    Without academic freedom, top quality scholars in fields related to 
national defense would avoid employment in PME schools simply because 
of the limitation on their teaching and research.
    Dr. Snyder. 11. What should be the role of history in PME?
    Dr. Kohn. History is the foundation stone for PME: the accumulated 
experience of war in all of its complexity and diversity, treasure on 
which to draw for virtually any application in the present and future. 
It has no specific ``lessons'' nor can it ``prove'' anything. What it 
can do is arm soldiers with the range of possibilities to approach 
almost any problem. History offers deeper and broader ways of looking 
at military affairs, alerts commanders to the unanticipated and the 
contingent inherent in command. History reminds its students that war 
is neither science nor engineering nor art, but is above all a human 
phenomenon with all of the uncertainties and unintended consequences 
involved in human activity. In his speeches over the course of his 
congressional career (most recently at the Naval War College on June 
19, 2009), Chairman Skelton has made these points with some of the most 
telling anecdotes and examples.
    History can be used for case studies of virtually anything in 
military affairs--even technology and technological change--a faculty 
member wishes to teach. But it is especially useful to teaching the 
formulation of strategy, planning, operations, leadership, and command.
    History can be used to explain how the world came to be as it is, 
in whole or in part, for one country or a region, for almost any issue 
or topic of interest to military officers.
    History can be used to inspire officers to excel, and to reassure 
them that no matter how desperate the situation or difficult the 
problem, their predecessors faced similar challenges and succeeded or 
prevailed.
    American officers are largely deficient in their knowledge and 
appreciation of history, despite required courses at the undergraduate 
level, history's increasing use in PME over the last generation, and 
the continuing efforts of professional historians and advocates like 
Chairman Skelton. In this the military reflects the larger ignorance 
and neglect of history by the American public, which largely views 
history as a primary and secondary educational exercise, as 
entertainment, as ``gee whiz'' curiosities--all of this in spite of 
billions devoted to museums, historic sites, required courses, and 
continual use (and abuse) of history by the media and prominent people.
    While it does not necessarily promise a remedy, my recommendation 
would be to require in pre-commissioning education at least one 
semester of American history, one of world or global history, and one 
of military history: American history to educate officers about their 
client and the development of its political system, economy, society, 
and culture; global history to put the United States into context, and 
to alert cadets/midshipmen to the diversity of the world and its 
contingent development; and military history as an introduction to the 
profession of arms, its evolution, the nature of war from the human 
experience of combat to the high councils of government, the origins 
and effects of war on states and societies, and a number of other 
themes and issues. The military history should not be service specific 
but should include land, sea, and air warfare in its political, social, 
economic, and cultural context. And all of the historical instruction 
should be foundational: that is, designed to teach students to think in 
time, understand historical method, and learn to enjoy the reading of 
history as a requirement of the profession of arms. Three one-semester 
courses are certainly as important a professional foundation as three 
one-semester courses in math, science, and engineering since war, to 
repeat, is a human experience.
    At ISS, history should be used as case studies to understand the 
development of the service sponsor of the school, of modern war, of 
planning and operations, and of leadership and command at the 
operational level. Ethics and civil-military relations should be part 
of this instructions, as well as joint and interagency issues. The case 
studies should be chosen for their diversity and so that, strung 
together, they impart a coherent sense of how war developed in the last 
two-plus centuries. ISS should build on subjects raised in pre-
commissioning education and provide the basis for more advanced study 
in SSS.
    At SSS, historical study should concentrate at the strategic and 
national and international levels: on the development of military 
thought, the history of strategy and planning, and selected wars 
campaigns that illustrate fundamental problems of grand and military 
strategy, civil-military relations, joint and combined war fighting, 
the marshaling and integration of various forms of national power, and 
the challenge of command and leadership at the highest levels. Both 
historical case studies and small, coherent historical courses or 
fragments could be used.
    At present, there appears to be considerable overlap and redundancy 
in ISS and SSS. Both mix the study of national policy, strategy, 
operations, leadership, and command with a focus more limited than 
appropriate on the operational and strategic levels of war. There does 
not appear to be much communication or consultation on the content of 
curricula between the staff and war colleges, even within a single 
service with the possible exception of the Naval War College, which has 
the benefit of a single, unified faculty teaching both levels.

                                  <all>

</pre></body></html>
